<html>
<title> - OVERSIGHT OF THE FEDERAL GOVERNMENT'S PROCUREMENT OF AMMUNITION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
    OVERSIGHT OF THE FEDERAL GOVERNMENT'S PROCUREMENT OF AMMUNITION

=======================================================================

                        JOINT OVERSIGHT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                AND THE

                    SUBCOMMITTEE ON ECONOMIC GROWTH,
                  JOB CREATION AND REGULATORY AFFAIRS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2013

                               __________

                           Serial No. 113-57

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                              __________

                    U.S. GOVERNMENT PRINTING OFFICE
83-794 PDF                    WASHINGTON : 2013
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbdccbd4fbd8cec8cfd3ded7cb95d8d4d695">[email&#160;protected]</a>  








              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
ROB WOODALL, Georgia                 DANNY K. DAVIS, Illinois
THOMAS MASSIE, Kentucky              PETER WELCH, Vermont
DOUG COLLINS, Georgia                TONY CARDENAS, California
MARK MEADOWS, North Carolina         STEVEN A. HORSFORD, Nevada
KERRY L. BENTIVOLIO, Michigan        MICHELLE LUJAN GRISHAM, New Mexico
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                   Subcommittee on National Security

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts 
JOHN J. DUNCAN, JR., Tennessee           Ranking Minority Member
JUSTIN AMASH, Michigan               CAROLYN B. MALONEY, New York
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
TREY GOWDY, South Carolina           JACKIE SPEIER, California
CYNTHIA M. LUMMIS, Wyoming           PETER WELCH, Vermont
ROB WOODALL, Georgia                 MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan

  Subcommittee on Economic Growth, Job Creation and Regulatory Affairs

                       JIM JORDAN, Ohio, Chairman
JOHN J. DUNCAN JR., Tennessee        MATTHEW A. CARTWRIGHT, 
PATRICK T. McHENRY, North Carolina       Pennsylvania, Ranking Minority 
PAUL GOSAR, Arizona                      Member
PATRICK MEEHAN, Pennsylvania         TAMMY DUCKWORTH, Illinois
SCOTT DesJARLAIS, Tennessee          GERALD E. CONNOLLY, Virginia
DOC HASTINGS, Washington             MARK POCAN, Wisconsin
CYNTHIA LUMMIS, Wyoming              DANNY K. DAVIS, Illinois
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina
KERRY BENTIVOLIO, Michigan
RON DeSANTIS, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 25, 2013...................................     1

                               WITNESSES

Mr. Nick Nayak, Ph.D., Chief Procurement Officer, U.S. Department 
  of Homeland Security
    Oral Statement...............................................     8
    Written Statement............................................    10
Mr. Humberto Medina, Assistant Director, National Firearms and 
  Tactical Training Unit, U.S. Immigration and Customs 
  Enforcement, U.S. Department of Homeland Security
    Oral Statement...............................................    16
Mr. Patrick P. O'Carroll, Jr.
    Oral Statement...............................................    17
    Written Statement............................................    19
Mr. Jon Adler, National President, National Law Enforcement 
  Officers Association
    Oral Statement...............................................    57
    Written Statement............................................    60

                                APPENDIX

The Honorable John F. Tierney, a Member of Congress from the 
  State of Massachusetts, Opening Statement......................    68
CRS Report Information on Ammunition used in FY11-12 Submitted 
  for the Record from Mr. Medina.................................    70
Homeland Security buying pricey ammo as department-wide cuts take 
  hold by Perry Chiaramonte......................................    74


    OVERSIGHT OF THE FEDERAL GOVERNMENT'S PROCUREMENT OF AMMUNITION

                              ----------                              


                       Thursday, April 25, 2013,

                  House of Representatives,
 Subcommittee on National Security, joint with the 
 Subcommittee on Economic Growth, Job Creation and 
                                Regulatory Affairs,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2154 Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the subcommittee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Amash, Gosar, DesJarlais, Gowdy, Woodall, Massie, Collins, 
Meadows, Bentivolio, DeSantis, Issa, Maloney, Tierney, Kelly 
and Horsford.
    Staff Present: Ali Ahmad, Majority Communications Advisor; 
Kurt Bardella, Majority Senior Policy Advisor; Molly Boyl, 
Majority Parliamentarian; Lawrence J. Brady, Majority Staff 
Director; Sharon Casey, Majority Senior Assistant Clerk; John 
Cuaderes, Majority Deputy Staff Director; Adam P. Fromm, 
Majority Director of Member Services and Committee Operations; 
Linda Good, Majority Chief Clerk; Mitchell S. Kominsky, 
Majority Counsel; Jim Lewis, Majority Senior Policy Advisor; 
Mark D. Marin, Majority Director of Oversight; Scott Schmidt, 
Majority Deputy Director of Digital Strategy; Sang H. Yi, 
Majority Professional Staff Member; Jaron Bourke, Minority 
Director of Administration; Kevin Corbin, Minority Professional 
Staff Member; Yvette Cravins, Minority Counsel; Devon Hill, 
Minority Research Assistant; Peter Kenny, Minority Counsel; 
Adam Koshkin, Minority Research Assistant.
    Mr. Chaffetz. Good morning. The committee will come to 
order.
    I would like to begin this hearing by stating the Oversight 
Committee mission statement. We exist to secure two fundamental 
principles. First, Americans have the right to know that the 
money Washington takes from them is well-spent. And second, 
Americans deserve an efficient, effective government that works 
for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers, because taxpayers 
have a right to know what they get from their government.
    We will work tirelessly in partnership with citizen 
watchdogs to deliver the facts to the American people and bring 
genuine reform to the Federal bureaucracy. This is the mission 
of the Oversight and Government Reform Committee.
    Good morning, and welcome to today's hearing, titled, 
``Oversight of the Federal Government's Procurement of 
Ammunition.'' I am pleased to have an opportunity to hold this 
as a joint hearing with Chairman Jordan on this important 
matter.
    I would also like to welcome Ranking Member Tierney, 
Ranking Member Cartwright, members of the subcommittee and 
those joining us in the audience here today.
    As we have seen in very recent news reports, the Federal 
Government's massive procurement of ammunition, including 
articles from USA Today, the Associated Press and Investor's 
Business Daily, today's hearing will provide members with a 
chance to engage with senior Federal Government officials to 
discuss the procurement of ammunition at the Department of 
Homeland Security and the Social Security Administration Office 
of Inspector General.
    We are not talking about the Department of Defense. We are 
not talking about the Department of Justice. We are focused on 
these two agencies here today. And as we have seen, Homeland 
Security currently has in inventory more than 260 million 
rounds of ammunition. The question is, what is an appropriate 
use of this ammunition, where is it stored, how much are they 
paying for it and what are they doing with it?
    In fiscal year 2011, the Department of Homeland Security 
purchased approximately 108 million rounds of ammunition. In 
fiscal year 2012, Homeland Security purchased more than 103 
million rounds of ammunition. To put it in context, the 
testimony we will hear today, they have about 70,000 agents who 
actually carry and use and need to be trained with weapons.
    In the meantime, Homeland Security recently opened up a 
purchase order that allowed them on the high end to purchase 
over a billion rounds. In fact, in the opening statement, if 
there is any way that Homeland Security could clarify, because 
we have seen various news reports, and we have asked for 
documentation, and it is still unclear to me, this is the top 
end, this is the maximum amount. It does not suggest that they 
are going to purchase that amount. But they could under this 
purchase order buy up to, and I would appreciate some 
clarification, is it 1.1 billion rounds over five years, is it 
1.4, 1.5, 1.6 billion rounds over five years? We would like to 
know what that is.
    In fiscal year 2012, the Department of Homeland Security 
used approximately 116 million rounds of ammunition. In 
comparison, the United States Army purchased about 391 million 
rounds of small arms ammunition in fiscal year 2012, for an end 
strength of both active and reserve components of about 1.1 
million people. This means that the Army allocated about 347 
rounds of small arms ammunition per soldier in fiscal year 
2012.
    Based on Homeland Security's allocation of approximately 
1,300 to 1,600 rounds per officer in comparison, Homeland 
Security officers used roughly 1,000 rounds more per person, or 
per officer, than the average Army officer.
    On March 8th, 2013, I wrote letters to the Department of 
Homeland Security and the Social Security Administration, 
requesting information and briefings in order to learn more 
about their procurement. I appreciate their response. First, it 
is entirely inexplicable why the Department of Homeland 
Security needs so much ammunition. We did not look at the 
Department of Defense, nor did we look at the Department of 
Justice. Based on the information provided to the committee by 
Homeland Security, their officers use what seems to be an 
exorbitant amount of ammunition.
    DHS also provided documents to show the Department used 
approximately 116 million rounds. This is a stark difference 
from what Secretary Napolitano recently claimed that Homeland 
Security purchased. She said ``I think our average is about 150 
million rounds per year.'' A gap of over 30 million rounds of 
ammunition between the Secretary's figures and the numbers 
provided to the committee is a significant difference and 
something we need to sort out.
    Based on the information provided to the committee, 
approximately 88 million of the 116 million rounds, or 75 
percent, were for training purposes by Homeland Security. At 
the same time, approximately 28 million rounds of ammunition 
were for ``operational purposes.'' Part of what we need 
clarification on is, what is operational and what is training? 
Please help in your opening statement to clarify the difference 
between those two.
    According to Homeland Security, operational purposes means 
for operational posture, which translates to ammunition out in 
the field with officers and reserve ammunition in the field. 
But again, this needs clarification.
    I am also hearing a different story than when we see people 
out in the field. I for instance was with Mr. Bentivolio and 
went to visit the southwest border. We visited with Customs and 
Border Patrol and ICE officers. We did this during an April 2nd 
trip to the Yuma Sector, we went to the Nogales Sector, we 
visited with people from the El Centro Sector there in 
California. They were complaining about a shortage of 
ammunition.
    In fact, I would point to this website posting that they 
put up here, El Centro Border Patrol agents were just informed 
on March 28th, 2013, that due to budget cuts, they would not be 
issued any ammunition this quarter for maintaining proficiency 
above the number of rounds needed to complete their quarterly 
qualification.
    Three different agents, three different sectors, each 
complained that they are given zero rounds, zero rounds, to do 
and perform training, which is of concern on many fronts. This 
again is something that needs clarification.
    If the Department of Homeland Security did in fact use 28 
million rounds of ammunition in the field, or ammunition has 
been stockpiled for operational purposes at local offices, why 
are law enforcement officers being told there is no ammunition 
for training? We have more than 260 million rounds on hand. 
While I appreciate Homeland Security providing answers to my 
inquiries, the responses provoked even more questions.
    The employee count provided by Homeland Security indicated 
there were 90,079 employees that used fire and needed to be 
trained on a weapon. The testimony today will say that that 
number is just over 70,000. Again, we need some clarification, 
because the written statement that we got says over 90,000. 
Testimony today will say 70,000. That is a huge difference.
    We understand that not all employees are armed. But there 
are 240,000 people in just Homeland Security alone. Homeland 
Security has indicated the number of pistol-qualifying, 
carrying DHS officers is, again, roughly 70,000. Just over 
70,000. If you divide out the 116 million rounds used in a 
year, again, you come up with a number that is in the rough 
range of 1,600 per person.
    Now, again, I am not a mathematician. But the reason we are 
here today is to help clarify this, put it into context and get 
some answers.
    Social Security Administration, meanwhile, Office of 
Inspector General, which has approximately 290 law enforcement 
agents, used 174,000 rounds of ammunition. In other words, the 
law enforcement officers at the Social Security Administration 
used about 600 rounds of ammunition per officer. Again, a 
discrepancy could be as much as 1,000 more rounds per agent at 
the Homeland Security compared to Social Security. And I do 
appreciate the clarity in which the Social Security 
Administration has responded to our questions, with their 
answers. It was very impressive.
    I am committed to supporting the work of our law 
enforcement officers, and I want to ensure the procurement of 
ammunition for training purposes and operational is done in an 
effective manner. We want everybody to be properly trained. I 
agree that law enforcement needs to be trained and equipped 
with ammunition. We just simply want to have answers, some 
clarification.
    I look forward to hearing from our witnesses, Mr. Nayak, 
Mr. Medina and Inspector General O'Carroll, and on the second 
panel, Mr. Adler, about the solutions to procurement challenges 
and things we can do to improve the process.
    I would now like to recognize the ranking member of the 
subcommittee, Mr. Tierney.
    [Prepared statement of Mr. Chaffetz follows:]
    Mr. Tierney. Thank you, Mr. Chairman. I thank all of our 
witnesses for being here today.
    Last year, the Department of Homeland Security and the 
Social Security Office of the Inspector General issued 
solicitations and awarded contracts to acquire a significant 
amount of ammunition. Rumors and conspiracy theories began to 
spread almost immediately over the internet.
    To the extent that we are here, Mr. Chairman, to clarify 
the procurement policies, to determine whether or not they are 
wasteful or whether or not there has been some abuse of the 
contracting policy, that is fine. To the extent that we are 
responding to conspiracy theories or whatever, I think we are 
really wasting everybody's time on that.
    It might have been predictable that Sarah Palin and like 
would have taken advantage of an opportunity to feed these 
conspiracy theories with statements that the government was 
preparing for civil unrest. But it was a little more disturbing 
that Senator Chuck Grassley would seize the opportunity to 
accuse the government of cornering the market on ammunition to 
drive up prices, as was reported in the Journal Express of 
Knoxville, Iowa on February 21st of this year.
    Unsubstantiated, false conspiracy theories have no place in 
this committee room, hopefully. Federal ammunition purchases 
are a fraction of the total ammunition market, and they have 
been decreasing in recent years. Even the National Rifle 
Association distanced itself from these conspiracy theories 
when it issued a statement last August bluntly titled Federal 
Law Enforcement Agencies Buy Ammunition. According to the NRA, 
``Much of the concern stems from a lack of understanding of the 
law enforcement functions'' at Federal agencies. The NRA quotes 
from a Republican member that the Department of Homeland 
Security purchases ``really isn't that large of an order'' when 
you consider their large law enforcement mission. The release 
goes even further to state, ``There is no need to invent 
additional threats to our gun owners' rights.''
    The conspiracy theories have prompted the Department's 
supplier of ammunition to release a response on its website. It 
reads, ``The Department of Homeland Security contract makes up 
a very small percentage of our total ammunition output. This 
contract is not taking ammunition away from civilians. The 
current increase in demand is attributed to the civilian 
market.''
    Since 2009, civilian sales of both guns and ammo have 
skyrocketed. In the wake of the Sandy Hook tragedy late last 
year, guns and ammo began flying off the shelves over concerns 
of new laws and restrictions. Ammunition purchasing behavior of 
some gun owners, motivated perhaps by a fear of ammunition 
shortages, has in fact caused supply of ammunition to lag 
behind demand. As anyone with a cursory knowledge of economics 
knows, the result would be an increase in price.
    This appears to be having a very real and negative 
consequence on local law enforcement. Around the Country, 
police departments have been reporting shortages of ammunition, 
from a sheriff's department in Tennessee, a report of reducing 
bullets to provide deputies for training, to concerns in 
Oklahoma and Texas that some officers are patrolling the 
streets not fully equipped. I look forward to hearing from the 
Department of Homeland Security and the Social Security 
Administration Inspector General on the effects these shortages 
may have on law enforcement training and operations.
    We have seen recently in Boston the importance of a highly 
trained, fully equipped police force. To the extent this 
hearing is going to concentrate on whether or not ammunition is 
being bought in the right amounts and distributed 
appropriately, then I think we are having a hearing that is 
worthwhile. Over the span of 10 minutes in that Boston area, 
there were 200 bullets that were shot. In the end, the 
Watertown police chief stated, and for all of us, thank God, 
he, meaning Tamerlan Tsarnaev, ran out of ammunition.
    Although these events are thankfully not everyday 
occurrences, it is imperative that our officers be equipped to 
respond when they do. According to our law enforcement 
officials, the ammunition purchases that are the subject of 
today's hearing are a necessary prerequisite for proper 
training and equipment. We should focus this hearing on whether 
or not that is the case, whether or not the purchases are 
excessive, whether or not the ammunition is being distributed 
appropriately and stay away, hopefully, from these rather 
bizarre conspiracy theories.
    Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you. Always good to have the gentleman 
from Massachusetts agreeing with and quoting the NRA and 
justifying a billion-plus rounds of ammunition purchase.
    [Laughter.]
    Mr. Tierney. Even a clock is right twice a day, right?
    Mr. Chaffetz. Yes, and we will note it. Thank you.
    I will now recognize the chairman of the full committee, 
the gentleman from California, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. I want to thank you for 
an opening statement that discussed the issue we are here for 
today. I am sad that the ranking member wanted to make it about 
politics or guns or internet statements.
    There is a serious question of waste and lack of 
accountability. The chairman today, I am very happy and proud 
that he is calling in question a longstanding problem 
throughout government. In 1971, as a young private, I was in 
EOD. We disposed of and gave away regulatory countless numbers 
of rounds not fired. It was post-Vietnam, it was a different 
time.
    Today, we deliberately do not have the Department of 
Defense here today, and I think that is appropriate. Their need 
to stockpile rounds, perhaps leading to obsolescence and 
disposal, is different. Their need is to have a virtually 
infinite amount of ammunition so that when a catastrophic event 
happens anywhere in the world, there is sufficient ammunition 
to respond to respond immediately.
    Back in the 1970s there was an expression: when the Soviets 
come over the border, you have to come as you are and bring 
what you have. That is not true of Social Security. The idea 
that you have to have excess rounds, in excess of what can be 
justified for training on an annual basis year after year after 
year flies in the face of common sense. Rounds are not bananas, 
they do not brown in a matter of days or weeks. They do have a 
long shelf life. They can be rotated into training so that 
fresh ammunition is always available for the day to day 
protection of law enforcement.
    Accountability for how many rounds are fired by person in 
support of their necessary training would lead to a number that 
could have been given to this committee well in advance. That 
is what we should have and should expect. If we discover, as I 
believe we will, that rounds are purchased, stockpiled and then 
either disposed of or passed on to other non-Federal agencies, 
or shot indiscriminately and without accountability for the 
number of rounds, then shame on you.
    This is a relatively small amount of dollars, but it is the 
kind of dollars that should be highly controlled. Bullets can 
kill people. They need to be safeguarded properly during their 
purchase, their storage, their use in training and of course, 
accountability while they are in operations. I believe this 
committee is long overdue to ask that basic question of, are 
the consumable supplies, including ammunition, by the Federal 
Government, appropriately accounted for so as to minimize waste 
and minimize circumvention or misuse or simply joyful use that 
can happen.
    This morning, in the basement of the Capitol, I fired ten 
rounds from a 9 millimeter. That is not enough to qualify or to 
get me back to currency. I understand that. Would 20 rounds do 
it? Would 40 rounds do it? Would 100 rounds do it? The 
Department of Defense has records for that. And accountability 
by as much as a junior NCO or a junior officer is absolute at 
the Department of Defense.
    Today we will begin the questioning of whether or not 
anything close to that level of accountability exists 
throughout the rest of government. So Mr. Chairman, this is a 
serious hearing about potential waste and lack of 
accountability. That is what we are here for today. I commend 
you for this important hearing and I yield back.
    Mr. Chaffetz. I thank the gentleman.
    We will now recognize the gentleman of the subcommittee 
that we are doing this jointly with, the gentleman from Ohio, 
Mr. Jordan. Chairman Jordan, you are recognized for five 
minutes.
    Mr. Jordan. Thank you, Chairman, and I appreciate your 
having this hearing today.
    Let me comment first relative to the ranking member's 
statement. This is not about conspiracy theories, this is about 
good government. We just want to know. I can't count the 
numbers of times I have had constituents come up to me and ask 
me about this issue, they have read about it, they just want to 
know the truth. Sometimes you just have hearings to find out 
the truth. You are not trying to make political points, you 
just want to know what is going on.
    That is what this is about and that is why I appreciate the 
chairman having this hearing.
    Multiple news reports have noted public concerns about the 
Federal Government's procurement of ammunition. For example, 
according to an article in USA Today, on February 18th of this 
year, the Department of Homeland Security solicited bids for up 
to 1.1 billion rounds of ammunition for over the next five 
years. Based on the information provided to the committee in 
response to these concerns, we have learned a great deal about 
the procurement of ammunition by DHS and SSAOIG. We hope to 
learn more today.
    As Mr. Chaffetz mentioned, I am anxious to learn why the 
Department of Homeland Security officers used almost 1,000 
rounds of ammunition per officer more than the average Army 
officer for small arms ammunition. While I agree that law 
enforcement agents need to be trained and equipped and need all 
the ammunition that is required to do that, the question before 
us today is whether DHS and the Social Security Administration 
Inspector General are procuring ammunition efficiently.
    We have also learned that DHS consumes all purchased 
ammunition. But we are hearing anecdotes from law enforcement 
officers on the ground that suggests otherwise.
    Thus, I am interested in hearing from the DHS witnesses 
about why there is a contrast in how much ammunition the agency 
is procuring compared to the claims of some agents that there 
are ammunition shortages for their training.
    Today's hearing should explore potential solutions for the 
way the Federal Government can improve the procurement process 
and make sure that we are procuring the right amount of 
ammunition at the most efficient cost to the taxpayer. This 
hearing represents an opportunity to publicly discuss the 
information detailing the procurement of ammunition provided by 
DHS and SSAOIG, and learn more about the Federal Government's 
processes, policies and requirements for procuring ammunition.
    I look forward to hearing from our witnesses and just 
getting informed and being able to answer our constituents' 
questions about this issue. Thank you, and I yield back.
    Mr. Chaffetz. Thank you. Members may have seven days to 
submit opening statements for the record.
    We will now recognize our first panel. Dr. Nick Nayak is 
the Chief Procurement Officer for the U.S. Department of 
Homeland Security. Mr. Medina is the Assistant Director of 
National Firearms and Tactical Training Unit at the U.S. 
Immigration and Customs Enforcement. He also chairs the DHS 
Weapons and Ammunition Commodity Council. And the Honorable 
Patrick O'Carroll, Jr. is the Inspector General at the Social 
Security Administration.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. If you gentlemen will please rise and 
raise your right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Mr. Chaffetz. Thank you. You may be seated. Let the record 
reflect that the witnesses answered in the affirmative.
    In order to allow time for discussion, we would appreciate 
it if you would limit your testimony to five minutes. Your 
entire written statement will be made part of the record. We 
may have questions that will also require some follow-up. 
Again, we would appreciate a timely response to those, and 
those too will be inserted into the record.
    Dr. Nayak, we will now recognize you for five minutes. We 
thank you for being here.

                       WITNESS STATEMENTS

                    STATEMENT OF NICK NAYAK

    Mr. Nayak. Thank you, Mr. Chairman.
    I am going to abbreviate my statement and make it much less 
than five minutes, try to answer some of your questions from 
your opening statement.
    Good morning, Chairman Chaffetz, Chairman Jordan, Ranking 
Member Tierney, Ranking Member Cartwright and distinguished 
members of the subcommittee. It is my honor to testify today in 
front of you regarding procurement of ammunition at DHS.
    I am DHS' chief procurement officer and a career civil 
servant, with 26 years procurement experience in the public, 
academic and private sectors. My chief responsibility is to 
oversee the purchase of $13 billion worth of products and 
services that keep our Nation safe and at a reasonable cost to 
the American taxpayer.
    There is, as we have heard already, a tremendous amount of 
interest in the Department's purchase of ammunition. In 
addition to this committee, the Department has responded to 
over 200 inquiries from Congressional offices and GAO has 
notified us that they will initiate a study on weapons and 
ammunition purchases at the Department. We welcome that review.
    At this time, I would like to address several assertions 
that have appeared in the media, and again, sort of in an 
abbreviated fashion. We look forward to questions.
    Number one, we have not purchased 1.6 billion rounds of 
ammunition. I have no idea where the billion or over ever came 
from in terms of us having the capability to buy that. As we 
know, the average is about 100 million or so rounds that we buy 
per year. If you just do the math, it would take more than a 
decade and not shooting one bullet to get to a billion rounds 
on hand.
    You had mentioned the rounds that we have on hand, so I 
won't really cover that.
    The second assertion is that we are stockpiling ammunition. 
Simply not true, look forward to questions on that. We do have 
two years worth of usage on hand, and there are specific 
reasons for why we do that.
    You mentioned how we use ammunition. It is true in 
operations and training, and we can explain that further.
    The third assertion is, DHS' recent purchases of ammunition 
will not create shortages and restrict the supply of ammunition 
available to the public. The National Shooting Sports 
Foundation estimates the total annual domestic production of 
ammunition is roughly 10 to 12 billion rounds, and DHS' annual 
purchases equate to 1 percent of that production.
    DHS has eight component agencies that buy and use 
ammunition to carry out their respective missions. Given the 
large number of law enforcement and security personnel the 
Department has, we established the Weapons and Ammunition 
Commodity Council in 2003 to identify ways to achieve cost 
savings by leveraging the combined purchasing power of our 
component agencies through something called strategic sourcing. 
In the past three years alone, we have saved more than a 
billion dollars through our strategic sourcing program
    My colleague, Bert Medina, who is testifying alongside me 
this morning, heads the Weapons and Ammunition Commodity 
Council. He will be able to elaborate on the significant 
savings and the considerable degree of standardization among 
ammunition requirements we have been able to achieve through 
strategic sourcing.
    Finally, Mr. Chairman, I am pleased to share that last 
year, GAO recognized our efforts to achieve greater oversight 
through our strategic plan, through one of the reports they 
produced where we have enhanced our oversight, our procurement 
oversight, and also through a study that they did on strategic 
sourcing, where we were called out about 10 or 11 times for 
being a leader in that particular area, which leads to getting 
a good deal for the American taxpayer.
    I very much appreciate the opportunity to testify before 
you today and look forward to answering all of your questions. 
Thank you.
    [Prepared statement of Mr. Nayak follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Chaffetz. Thank you.
    We now recognize Mr. Medina for five minutes.

                  STATEMENT OF HUMBERTO MEDINA

    Mr. Medina. Good morning, Chairman Chaffetz, Chairman 
Jordan, Ranking Member Tierney, Ranking Member Cartwright and 
distinguished members of the subcommittee. It is my honor to 
testify before you today on the procurement of ammunition by 
the Department of Homeland Security law enforcement agents and 
officers.
    I am currently the chairman of the DHS Weapons and 
Ammunition Commodity Council, or WACC, for short. And I am the 
Assistant Director of the National Firearms and Tactical 
Training Unit, or NFTTU, with U.S. Immigration and Customs 
Enforcement.
    I am a special agent, I have been working in Federal law 
enforcement for over 28 years. Given the large number of law 
enforcement and security personnel across the Department, DHS 
established the Weapons and Ammunition Commodity Council back 
in October of 2003. As the current chair, it is my 
responsibility to work with all DHS components to find cost 
savings where possible through strategic sourcing for the 
acquisition of weapons, ammunition, body armor and other law 
enforcement equipment.
    The WACC's goal is to use the collective approach for 
increased buying power and realize significant cost savings for 
these items that include weapons, ammunition, body armor and 
other law enforcement equipment. All these are shared needs 
amongst DHS components. Through the WACC, DHS components 
combine their expertise and resources to initiate DHS-wide 
contracts based on their specific mission needs.
    The WACC has over time had the effect of streamlining the 
types of equipment that diverse components choose to use. 
Components that have switched caliber of pistol, for example, 
that they use in part due to the prices they are able to secure 
by joining a procurement effort, which leads to the ability to 
further leverage buying power on future ammunition contracts.
    As the head of the NFTTU within ICE, I am responsible for 
ensuring that weapons and ammunition required for use by law 
enforcement personnel are tested or evaluated and distributed 
to our officers and agents for training and operational use. As 
you know, ICE is DHS' principal investigative arm and it is the 
second largest investigative agency in the Federal Government.
    ICE has a broad mission, covering approximately 400 Federal 
laws regarding border security, customs, trade and immigration. 
The NFTTU is the single focal point for firearms and use of 
force issues within ICE and facilitates the purchase and 
distribution fo weapons, ammunition, as well as provides 
training, logistical support and guidance to increase the 
safety and improve the tactical proficiency of the armed 
workforce within ICE.
    In addition, NFTTU provides armory services through shared 
services agreements for U.S. Customs and Border Protection, 
Federal Protective Service and the Federal Air Marshal Service. 
The NFTTU is also unique in that it has a state of the art 
weapons and ammunition testing facility called the NFTTU 
Ballistics Laboratory. The BALL Lab is staffed by experienced 
engineers and technicians who conduct research and testing of 
ammunition, firearms and other law enforcement equipment.
    In addition, the BALL Lab performs examination of items 
returned from service to identify defects, monitor vendor 
quality control and perform vendor process audits. The 
capabilities of the ICE Ball Lab are leveraged by other DHS 
components for use in strategic sourcing contracts for weapons 
and ammunition.
    Weapons and ammunition are vital and essential to ensure 
that our law enforcement personnel are safe and carry out their 
mission to protect and defend the homeland. Although DHS 
spending on ammunition represents less than one-tenth of 1 
percent of the DHS budget, it is critical for DHS components to 
work collectively to reduce the cost without sacrificing 
safety.
    In addition, those components within DHS that use 
ammunition have pursued measures to get an even better deal for 
the taxpayers' dollar. DHS will continue to seek ways to save 
taxpayers' money while maintaining a highly trained workforce 
that diligently protects the Nation.
    Thank you again for this opportunity to testify before you 
today. I look forward to answering your questions.
    Mr. Chaffetz. Thank you.
    We will now recognize Mr. O'Carroll for five minutes.

             STATEMENT OF PATRICK P. O'CARROLL, JR.

    Mr. O'Carroll. Good morning, Chairman Chaffetz, Chairman 
Jordan, Ranking Member Tierney, and members of both 
subcommittees.
    Two years ago a former Social Security employee broke into 
the home of his ex-girlfriend who still worked for SSA. He shot 
her and her new boyfriend and then fled. Our agents, working 
with the Kentucky State Police, tracked him into the mountains 
where an armed standoff ensued. It ended without shots being 
fired when the suspect was taken into custody.
    That same year, while trying to apprehend a fugitive felon, 
one of our agents and other members of a task force were fired 
at by the subject. They were forced to return fire for their 
own safety. In 2006, an Office of Inspector General agent from 
the Department of Justice was shot and killed while 
investigating a case involving a Bureau of Prisons guard. And 
last week, our agents worked hand in hand with their colleagues 
tracking the heavily-armed perpetrators of the Boston Marathon 
bombings.
    The Social Security OIG conducts criminal investigations 
every day, and we do almost 8,000 of them every year. This year 
marks the 35th anniversary of the Inspector General Act, and 
last month marked the 18th anniversary of the Social Security 
Administration's OIG, established when SSA became independent 
from HHS in 1995.
    For the first seven years of this OIG's existence, we 
derived our law enforcement authority from memoranda of 
understanding with the U.S. Marshal Service, making our agents 
special deputy U.S. Marshals. However, the Homeland Security 
Act of 2002 vested us with statutory law enforcement authority 
by amending the Inspector General Act of 1978. The new law now 
authorized our agents to carry a weapon, make arrests, execute 
search warrants, and wield the full array of Federal law 
enforcement powers and responsibilities.
    Among those responsibilities is complying with the Attorney 
General's guidelines for law enforcement. These guidelines 
mandate that each of our 294 sworn agents qualify four times a 
year with the weapon they carry on the street every day. These 
quarterly qualifications require between 60 and 180 bullets to 
be expended. That means for the most basic requirement alone, 
my office needs between 70,000 and 208,000 bullets every year.
    But there is also low light training, a 36 to 72 round 
exercise that requires another 10,000 to 22,000 bullets, and 
other training, plus the ammunition assigned to each agent to 
carry in the course of their daily work. Experience tells us 
that each year, depending on a variety of factors, we will need 
at least 125,000 but fewer than 175,000 rounds of our duty-
carry 357 hollow point ammunition.
    Over the past eight years, since we began using 357 caliber 
weapons, our average annual procurement has been just over 
150,000 rounds. In addition, we purchase much smaller 
quantities of shotgun ammunition, simunition for use in 
simulated training drills, and lead-free 357 ammunition for 
ranges that require lead-free bullets.
    With respect to these purchases, we estimate projected need 
and adjusted subsequent purchases as available stock rises and 
falls with our usage. We procure our ammunition using SSA's 
Office of Acquisition and Grants to ensure compliance with both 
Federal contracting regulations and to prevent the unnecessary 
and expensive duplication of this administrative function 
within the OIG.
    Once procured, we carefully store, distribute and track our 
ammunition in 66 offices across the Country. Our certified 
firearms instructors sign ammunition in and out of secure 
storage facilities for training exercises and duty use and log 
every round that we expend. When an internet rumor last August 
cast doubt on our need for ammunition, we responded with full 
transparency, and I do again today. I have provided detailed 
documentation on our acquisitions going back as far as we have 
records to reflect.
    Other than a false internet rumor about civil unrest, there 
has been no challenge I am aware of for our need or handling of 
ammunition. While our response to the August rumors and our 
work for this hearing have left me confident in our responsible 
acquisition and use of ammunition, it has also shown me that 
there is always room for improvement. To that end, we have 
developed and implemented an even more stringent centralized 
policy for tracking and reporting procurement, distribution and 
storage of our ammunition. We will continue to exercise 
prudence and diligence in our purchase and handling of 
ammunition, with as much transparency as possible.
    I thank you again for the invitation to testify today, and 
I will be happy to answer any questions.
    [Prepared statement of Mr. O'Carroll follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Chaffetz. Thank you.
    Again, your full statements will be entered into the 
record.
    I now recognize myself for five minutes. I am still not 
understanding the difference between operational and training. 
My understanding is fiscal year 2012, Homeland Security had 88 
million rounds of ammunition that was used for training. 
Twenty-seven million rounds was for operations.
    Who can explain what the difference is?
    Mr. Medina. I will take the question, Mr. Chairman. 
Operational ammunition is ammunition that is loaded into 
magazines and maintained for ready-for-duty use should an 
officer be called on an assignment. That would be operational. 
To include ammunition that is expended if the situation calls 
for it.
    Mr. Chaffetz. So how many times, for instance, did Homeland 
Security last year actually have to shoot and fire a weapon?
    Mr. Medina. In terms of on actual duty?
    Mr. Chaffetz. Yes.
    Mr. Medina. I can tell you what ICE had to do.
    Mr. Chaffetz. Go ahead, ICE, how many rounds?
    Mr. Medina. ICE had 15 shooting incidents last year.
    Mr. Chaffetz. Less than 100 rounds?
    Mr. Medina. Less than 100 rounds, yes, sir.
    Mr. Chaffetz. So what happens? I don't understand what 
happens to these rounds. Again, as we have said, it doesn't 
expire. There is no expiration date.
    Mr. Medina. No, sir. What happens is they then use that 
ammunition after a period of time as training ammunition. It 
gets rotated back in, gets cycled back in with their training 
ammunition. So in other words, they have ammunition that they 
use, part of it that they use for operations. That is the 
complement of ammunition that they are issued. Then when they 
go back to the range, they periodically rotate it so that they 
have fresh ammunition on hand.
    Mr. Chaffetz. Again, if you do the numbers and you do the 
math, let's look for instance at Customs and Border Patrol. We 
have emails and web postings and stuff from the local people on 
the ground saying they are getting zero rounds, zero, for 
training.
    Mr. Medina. Can I speak to that, sir?
    Mr. Chaffetz. Sure.
    Mr. Medina. That is not accurate. What has happened is that 
in recent days there has been a change in the policy. It is 
essentially not really a change in the policy. The policy 
permits the issuance of practice rounds, not training rounds, 
practice rounds, that an individual officer can have and take 
with them to practice on their own time.
    Mr. Chaffetz. They tell me that that is not true. Social 
Security is using, they are going into very dangerous 
operations, they arrested over 500 people and very volatile 
types of situations. Yet Homeland Security is using about 1,000 
more rounds per person than Social Security. Why is that?
    Mr. Medina. I can't speak to what Social Security does. But 
I can speak to that in Homeland Security. Our agents and 
officers are exposed to a variety of situations.
    Mr. Chaffetz. So are they. You guys, it is Army.
    Mr. Medina. I understand. But they are exposed to a variety 
of situations, especially those agents that are on the border. 
They not only have just one weapon, they might have three 
weapons. So for each of those weapons, they have a complement 
of ammunition.
    Mr. Chaffetz. They have to qualify quarterly. What does not 
make sense, in the information you provide, is to suggest that, 
for instance, Customs and Border Patrol used 14,550,803 million 
rounds for operational purposes, when they are rarely firing 
their gun. When they need to fire the gun, we want to make sure 
they are highly trained, prepared, they have all the ammunition 
they need. But it seems like it is just walking out the door. 
There doesn't seem to be the accountability because of the 
exorbitant usage here. There is no accountability for where 
this ammunition is going.
    Mr. Medina. Sir, I can assure you that the ammunition is 
accounted for.
    Mr. Chaffetz. Where? We have been asking for this for a 
long time. And Dr. Nayak, how can you, are you telling me that 
the Associated Press, the USA Today, Investors Business Daily, 
and the briefer who came to our offices and shared the 
information, that you don't have the ability and you don't have 
a purchase order open to be able to purchase up to a billion 
plus rounds over the next five years?
    Mr. Nayak. Yes, that is exactly what I am telling you.
    Mr. Chaffetz. I am telling you, that is not what the 
briefer came and told us. That is not what the documents say.
    Mr. Nayak. Then it was inaccurate.
    Mr. Chaffetz. So what is the right amount? What is the 
amount?
    Mr. Nayak. I believe, Mr. Chairman, there are several 
contracts for ammunition.
    Mr. Chaffetz. There is lots of different ammunition, lots 
of suppliers. What is the grand total of ammunition that you 
have the ability to purchase over the next five years?
    Mr. Nayak. I appreciate the question. When we issue 
contracts and the types of contracts that we issue, I am going 
to get a little in the weeds.
    Mr. Chaffetz. I am just looking for a number.
    Mr. Nayak. The answer is a little complicated.
    Mr. Chaffetz. I know. I just want a number.
    Mr. Nayak. I believe that what you are referring to is one 
contract that was awarded by FLETC for $70 million.
    Mr. Chaffetz. No, I am looking for total contract. We will 
come back to this. My time is expired. I am going to ask 
another question and I am sure another member is going to 
follow up with you, so please try to get your act together on 
that.
    When people go to FLETC and they are actually there for 
training, and they are not a Homeland Security personnel, do 
they use ammunition provided by Homeland Security, or do they 
bring their own ammunition?
    Mr. Medina. I will answer that question. FLETC provides the 
ammunition and it is billed back to the agency.
    Mr. Chaffetz. So they are not to bring their own? What do 
we charge for that?
    Mr. Medina. I can't answer that. I will have to get back 
with you.
    Mr. Chaffetz. We would like to follow up on that. Because 
to suggest there are almost 17 million rounds used for that 
training, which is in addition to the other training, and we 
have people in the field saying, I am not getting any rounds, 
it does not add up.
    My time is expired. I recognize the ranking member from 
Massachusetts.
    Mr. Tierney. Thank you, Mr. Chairman.
    I am going to reserve my time and defer to my colleague at 
the moment.
    Ms. Kelly. Thank you so much. Thank you, Mr. Chair.
    As we know, an assortment of agencies falls under the DHS 
umbrella. More than 45 percent of all Federal officers with 
firearm authority are working under DHS, and the number of 
officers that are trained and certified in the use of firearms 
numbers is growing. From 2004 through 2008, the number of full-
time officers in U.S. Customs and Border Protection rose 33 
percent. Over the same period, ICE officers rose 20 percent and 
Secret Service rose more than 9 percent.
    Other DHS components with ammunition requirements, 
including the Coast Guard, Federal Air Marshal Service and 
Federal Protective Service, are all growing. Border Patrol 
agents have more than doubled from 10,000 agents in 2004 to 
over 21,000 agents in 2012. It would be reasonable to assume 
that as the number of DHS employees using firearms is 
increasing, DHS would continue to procure more ammunition. But 
is it true?
    Mr. Nayak, with the surge in DHS employees with firearms 
authority, did DHS spend more money on ammunition or buy more 
rounds from 2010 to 2012?
    Mr. Nayak. I am going to start the answer and Mr. Medina 
may finish the answer. We set up contracts so that the law 
enforcement community within DHS has the opportunity to buy 
ammunition as they need it. I don't buy ammunition unless the 
law enforcement community requests it. And by the way, just 
getting back to the Chairman's question, I now do have my act 
together, 750 million rounds is the number that I have for 
everything that we have in place at this time. And again, very 
happy that GAO is going to be doing an audit, because I know 
that we will be reviewing this again with them.
    Mr. Medina. I don't have anything to add.
    Ms. Kelly. What is the answer?
    Mr. Medina. Repeat the question again?
    Ms. Kelly. With the surge in DHS employees with firearms 
authority, did DHS spend more money on ammunition or buy more 
rounds from 2010 to 2012?
    Mr. Medina. We actually, I have shown, our numbers show 
that we are actually buying less rounds from 2010. But I can 
tell you what happened in 2010, where we have a spike. Back in 
2009, this is specifically related to the 40 caliber. We had 
some issues with one of our vendors. We had multiple awards for 
two contracts. And one particular vendor had issues with their 
ammunition quality to the point where we could not pass some of 
their lots.
    When we could not pass some of their lots, it created a big 
problem for us. Because it takes about six months or so for a 
vendor to produce a lot to even give it to us for testing. So 
not only was this vendor having difficulty providing us a lot 
that could pass the lot acceptance testing process, the lots 
that had passed were then being recalled because quality issues 
surfaced with those lots in the field, which is detrimental to 
the officers' confidence in the weapons. So that was 2009.
    We had to shift the production to another vendor. But it 
took us six months to catch up, which means in 2009 we had some 
scrambling to do. We had to shift ammunition in the field to 
make up for the deficiency that we had with that one particular 
vendor, to the point where we realized we had too keep a good 
reserve in. Because we couldn't, again, take a chance on being 
subjected to these fluctuations with the quality of ammunition.
    So as you see in 2010, we ordered more than we did in other 
years. That was part of that. But if you look at 2011 and 2012, 
the numbers have come back down. And in part, as our training 
has gone down, the academy classes have gone down, you can see 
that the numbers that FLETC has are commensurate with that as 
well.
    Ms. Kelly. So despite, if I am hearing you correctly, the 
consistent increase in officers, we are not really spending 
more money on ammunition?
    Mr. Medina. No, we are not. We have been stable for the 
last few years.
    Ms. Kelly. So it is not a harbinger of a government arms 
buildup?
    Mr. Medina. It is not.
    Ms. Kelly. Thank you.
    Mr. Chaffetz. The gentlewoman yields back. I now recognize 
the chairman of the other subcommittee, Mr. Jordan, for five 
minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Dr. Nayak, I will pick up with the chairman had left off. 
In your opening statement, you said you have no idea where the 
1 billion rounds number came from. You have to have some idea. 
Because as the chairman pointed out, Investors Business Daily, 
USA Today, Huffington Post, Associated Press, now, look, I am 
in politics. I know the press sometimes makes a mistake or two. 
But you have four news agencies reporting this number, and you 
in your testimony here and under oath in front of the committee 
say you have no clue where the number came from. You have to 
have a clue. Tell me how they got the billion number.
    Mr. Nayak. I don't know how they came up with the billion 
number. What we come up with us 750 million rounds.
    Mr. Jordan. So are they just making it up?
    Mr. Nayak. I have no idea. I have no idea. They could 
easily take some number, add some number, divide it and do all 
kinds of fuzzy math.
    Mr. Jordan. Don't you order in a five-year kind of a 
ceiling contract approach?
    Mr. Nayak. Yes.
    Mr. Jordan. I am saying it in layman's terms. You are in a 
five-year ceiling contract. What is that number for the five 
years? Is that the number you just gave our colleague?
    Mr. Nayak. Sir, just some perspective. It is a good 
question. Let me answer it directly. The information that I 
have right now, there are 34 contracts, 8 of them are 
strategically source contracts.
    Mr. Jordan. What was that number that you gave my 
colleague? Did you say 750 million?
    Mr. Nayak. Seven hundred fifty million rounds.
    Mr. Jordan. Rounds, purchased in a five-year ceiling 
contract? That is what it could purchase in a five-year ceiling 
contract? Is that what you are saying?
    Mr. Nayak. Not a contract, in all of the contracts.
    Mr. Jordan. I understand. All of the contracts that you 
have authority over.
    Mr. Nayak. We would have the capability over the years of 
collecting 750 million rounds.
    Mr. Jordan. So I guess I would hazard a guess saying maybe 
the news organizations said, in a ten-year time frame, using 
two five-year ceiling contracts, 750 million and 750 million, 
1.5 billion? Do you think they did it that way?
    Mr. Nayak. Maybe.
    Mr. Jordan. Maybe? Seems to make sense to me. Mr. Medina, 
do you want to offer something on that?
    Mr. Medina. We noticed during some of our work that we did, 
looking at what was purported to have been what we were buying, 
that in one instance there was a 70 million round contract that 
was misstated as 750 million, in one of the blogs. So that 
could be where it is coming from. But other than that, we 
really have no way of telling how they came to that conclusion.
    Mr. Jordan. Mr. Nayak, in your testimony you said 200 
Congressional offices have contacted you regarding this issue. 
That must be a big number or you wouldn't have cited it in your 
statement. Why do you think that is the case? Why do you think 
so many folks are calling you? Why do you think so many members 
of Congress are interested? Is it because of what I said, we 
are getting a lot of questions from constituents back home? Why 
do you think that is the case?
    Mr. Nayak. I appreciate the question. I don't want to 
speculate on why that is the case. I know that this has been 
frustrating.
    Mr. Jordan. Did you guys ever publicly issue a 
clarification saying, looking, it isn't 1.5, folks, it is 750 
million? Did you ever do that?
    Mr. Nayak. I do know that the Secretary has mentioned it, 
the Under Secretary.
    Mr. Jordan. We do press statements, we are in politics. Did 
you do a press statement?
    Mr. Nayak. Not to my knowledge.
    Mr. Jordan. You know, here is what I think. I think the 
reason we have so much concern out there, I think frankly, the 
Department of Homeland Security has a credibility problem. I 
will tell you what, this is an unrelated issue, but I think 
this goes to why the chairman called the hearing, why 
constituents are nervous about this. This is the same agency, 
you guys are obviously familiar with what took place at ICE 
where six weeks ago, 2,228 illegal detainees were released, 647 
of them were criminals, 8 of them were level 1 felons. And now 
so the American public sees that, Mr. Morton told the Judiciary 
Committee, which I am a member of, told the committee, we had 
to do that because of sequester, even though they had 20 months 
to get ready for sequester and plan for it. With a little 
planning, it seems to me you could have been ready for that.
    And now the American people hear about reports from four 
credible news organizations that the same organization is 
buying 1.5 billion rounds of ammunition. You have a credibility 
problem. Plain and simple. Then when you do the numbers, 1,300 
rounds per DHS employee per year, and you compare it to our 
soldiers in uniform in the United States Army, 347 rounds per 
soldier per year. You have a credibility problem. And you don't 
even issue a press release to clarify it. That is why you are 
here. That is why the chairman called the committee. And that 
is what our constituents want to know.
    And I apologize, I have 17 seconds left for you guys to 
respond, but Mr. Nayak or Mr. Medina, I think you need to 
respond and let the American people know what is going on to 
improve the credibility of the Department of Homeland Security.
    Mr. Nayak. I appreciate your point. I agree that we need to 
get the information out. I look forward to the GAO report and 
getting the information out.
    Mr. Jordan. Mr. Chairman, I yield back.
    Mr. Chaffetz. And that is one of the frustrations, we can't 
always wait for an audit. When the Secretary of Homeland 
Security says, well, it is 150 million rounds, and she is off 
by tens of millions of rounds, who is minding the store? You 
have more than 260 million rounds on hand, and you have Border 
Patrol agents complaining that they get zero for training. 
Zero.
    I now recognize the gentleman from South Carolina, Mr. 
Gowdy, for five minutes. The ranking member, just as a point of 
clarification, has deferred. He is holding his time and we will 
come back to him. But we will now recognize Mr. Gowdy for five 
minutes.
    Mr. Gowdy. I thank the chairman, the gentleman from Utah. 
Mr. Chairman, I also thank you for your leadership on this 
issue.
    Chairman Jordan used his opening statement, then he also 
used his questioning, Dr. Nayak, to talk about this global 
pursuit of the truth and how credibility can be impeached or 
impacted by false statements in the past. I guess his line of 
question is buttressed by the fact that at least all of us on 
this side have received countless inquiries from our 
constituents, and you yourself have received countless 
inquiries from Congress. So I guess fundamentally I would ask 
you, do you understand why we are having this hearing? Do you 
understand why the hearing was and is warranted?
    Mr. Nayak. Absolutely, yes.
    Mr. Gowdy. Why?
    Mr. Nayak. To get answers to the purchases of ammunition 
across, obviously across a couple of agencies here. Get a 
better understanding of it, and are we getting a good deal for 
what we are buying and all of the other good questions that you 
guys are asking.
    Mr. Gowdy. I think that is part of it. I think you are 
right, that is part of it. Do you think it is important for 
people in positions of leadership to be credible with the 
assertions that they make?
    Mr. Nayak. Certainly. And in a large enterprise, we do the 
best we can at particular moments in time. But certainly.
    Mr. Gowdy. When someone is not credible, what impact does 
that have?
    Mr. Nayak. It obviously hurts until you can regain 
credibility.
    Mr. Gowdy. And it doesn't just hurt in that area. It begins 
to slowly impact your credibility across a wide range of areas. 
I am actually, Doctor, not talking about you. This is the first 
time I have ever laid eyes on you and I assume vice versa. This 
is certainly the first time I have ever had the privilege of 
asking you questions. But it is not the first time I have had 
the privilege of asking questions of folks from your agency.
    So it just strikes me that just kind of globally, back to 
Chairman Jordan's point about this pursuit of the truth and 
credibility and what erodes public trust, it kind of 
fundamentally, you made reference to the Secretary herself and 
perhaps her efforts to kind of explain this issue previously. 
But when that is the same person, who is the only person in the 
Western Hemisphere who thinks the border is secure, that 
impacts credibility, correct? Would you agree?
    Mr. Nayak. I would rather not answer that question for the 
Secretary.
    Mr. Gowdy. All right, well, let me ask you this. When Madam 
Secretary says that TSA agents will be furloughed today, today, 
and they are never furloughed, do you think that impacts 
credibility?
    Mr. Nayak. I really can't answer something that I don't 
have that much knowledge about.
    Mr. Gowdy. When a law enforcement agent is sued or an 
official is sued by the agents and officers who work under her 
for a failure to enforce the current law, do you think that 
impacts credibility?
    Mr. Nayak. I would really rather allow someone else to 
answer that question. And incidentally, I have seen you before.
    Mr. Gowdy. You testified before?
    Mr. Nayak. No. I see you on TV.
    [Laughter.]
    Mr. Gowdy. Oh. Don't believe everything you see on 
television.
    All right, let me try that one. Because these are 
obviously, you are not the primary person I would like to be 
asking. But you do concede that the answers we give to 
questions impacts our credibility and then that credibility or 
believability impacts whether or not the general public 
believes our explanations? You see the connection, right? If 
you have a, or if someone hypothetically has a history of 
making comments that are demonstrably false, then even if you 
do explain a phenomenon, the answer may not be believed. So 
airport lines, if someone were to hypothetically say that we 
are going to see airport lines 150 to 200 percent longer, and 
that never materializes, do you think that would impact the 
credibility of the speaker?
    Mr. Nayak. All of this is a little bit out of my swim lane.
    Mr. Gowdy. All right. The specific instances would be 
outside of your area of expertise. But you do agree, you do 
agree that if there are comments made that are incredible, in 
the truest sense of the word, and I don't mean incredible as in 
good, I mean a lack of credibility, then that is necessarily 
going to impact whether or not the public believes other 
explanations. You do agree with me on that, right?
    Mr. Nayak. I just think in the context of this hearing, you 
will find that in the end, that we are credible in the 
information we are sharing and that we take it extremely 
seriously in terms of, in my case, in the world of procurement, 
setting up contracts to get a good deal for the taxpayer, while 
allowing the users to buy things to protect the Country.
    Mr. Gowdy. And actually, Doctor, I believe you. I have no 
reason at all, none, to question your credibility. So it might 
be wise if the author of some of these other comments would 
inform herself or himself, as the case may be, as much as you 
have on issues before he or she makes public pronouncements. 
With that, I would yield back to the chairman.
    Mr. Chaffetz. Thank you. The gentleman from Massachusetts 
continues to defer, so we will recognize the gentleman from 
Michigan, somebody I have traveled with to the southwest 
border, the gentleman from Michigan, Mr. Bentivolio, for five 
minutes.
    Mr. Bentivolio. Thank you, Mr. Chairman. Thank you, 
panelists, for appearing before us today. I am sure I am not 
the only member of Congress, as we have seen, to receive a 
considerable volume of constituent mail concerning the topic of 
discussion today. I assure you, the American people are very 
interested to hear what you have to say today.
    Let me start with this point. Regardless of whether or not 
these ammunition purchases are justified, it comforts me to see 
the American people's vigilance. If their concerns are 
overdrawn, I am grateful they err on the side of caution. The 
American people have a right to be watchful and a right to 
sound the alarm at the first sign of trouble.
    In my own experience, I led training for SWAT from basic 
firearm qualification all the way to complex SWAT operations as 
an instructor and manager of that training. I have a few 
questions, I was going through this purchase, Mr. O'Carroll, of 
hollow point and full metal jacket. And if you will, just bear 
with me for a second, you claim to have researched the open 
market to compare the costs of hollow point to that of full 
metal jacket. You then said, for example, in your testimony, 
Pro Bass Shops advertises a box of 50 hollow points for $33.49 
and one 20-box of full metal jacket from the same company 
retails for approximately $24. Then you said based on these 
numbers, one round of hollow point sells for approximately 67 
cents while one round of full metal jacket approximately $1.20. 
Surely you understand that advertised prices, retail prices, 
can't be compared, and advertised prices are by definition much 
lower than retail price, not to mention the volume or the 20 
round versus 50, it affects the unit price in obvious ways.
    In my own research, well, let me cut this short and just 
ask you a question. Did you find that hollow point is more 
expensive than full metal jacket? And what were your reasons 
for full metal jacket? Why do you need that in any type of 
operation?
    Mr. O'Carroll. Congressman, I am glad you asked that. The 
reason, what we use for our training is the same ammunition 
that we carry on duty. And what we find is that what you train 
with and then what you carry is going to be much more 
effective. So one, that is why we don't break down and use, 
let's say for example, leaded bullets at the range and then 
hollow points in carry. We use the metal jacketed pointed ones 
all the time.
    And the reason we do it, to get to the crux of your 
question, we find that when used, a hollow point bullet is 
going to flatten out and it is not going to travel as far. It 
is a much safer type of bullet to use in law enforcement than a 
regular leaded bullet would, which sometimes goes much further 
and can hit other people. That is the main reason why we do the 
hollow point, and that is why we carry that in our weapons.
    Mr. Bentivolio. And the target shooters, they say that it 
makes a better hole in the paper target, I understand. Is that 
correct?
    Mr. O'Carroll. I will tell you from experience, the holes 
in paper are different between the two rounds, correct.
    Mr. Bentivolio. Can you tell me what the basic load is for 
an officer on the job? A regular officer, not SWAT-type work.
    Mr. O'Carroll. In our case, we are carrying a 357 Sig, 13 
rounds and usually two magazines besides.
    Mr. Bentivolio. So that is 39 rounds.
    Mr. O'Carroll. Correct.
    Mr. Bentivolio. And how many to qualify, what, quarterly or 
yearly?
    Mr. O'Carroll. What we are doing is according to the 
Attorney General guidelines, we have to qualify quarterly. Then 
what we shoot in a round of range, as you are familiar with, is 
a round is usually about 60 rounds, is a round of 
qualification. What we are finding with that is, that is why 
when I gave my numbers for the committee on this thing, we use 
a range. Because as an example, when our agents go to the 
range, if somebody is very qualified, they might shoot one 
round. A new agent might need to shoot the three rounds, or 180 
rounds at the range. So usually what we are doing is we are 
doing about 60 rounds per agent three times, or 180 four times 
a year.
    Mr. Bentivolio. So he is using 21 more rounds from 
ammunition that he is actually carrying? So he takes his 
personal ammunition and he goes to the range, uses another 21 
round if he fires 60 rounds, correct?
    Mr. O'Carroll. Correct.
    Mr. Bentivolio. Four times a year.
    Mr. O'Carroll. FIFO is what we call it, first in, first 
out. We are doing that with our ammunition supply as well as 
the carry rounds that they are doing. They expend the rounds 
that are in their possession, then when they leave, they pick 
up new round to have in their possession.
    Mr. Bentivolio. Thank you. I see my time is expired. Mr. 
Chairman, I yield back to you.
    Mr. Chaffetz. Thank you. We are going to go ahead and 
recognize the gentleman from Florida, Mr. DeSantis, for five 
minutes.
    Mr. DeSantis. Thank you, Mr. Chairman. Thanks to the 
witnesses for coming here.
    I guess this is probably for Dr. Nayak. How does DHS 
determine the ceiling number for these indefinite quantity 
contracts?
    Mr. Nayak. The ceiling is actually decided between my 
office and the requiring activity, or the law enforcement 
community. So I am going to ask Bert to talk about how do we 
determine the ceilings.
    Mr. Medina. Ceilings are based on our past history with 
respect to consumption by the components. That is how we 
determine the ceiling. We generally are pretty close to that 
number every time we go through the entire period of 
performance with our contracts.
    Mr. DeSantis. I guess with the news reports and how folks 
are reacting to it, I guess there was the insinuation that DHS 
was stockpiling ammunition to kind of affect the availability 
of ammunition for private citizens on the private market. Can 
you say categorically that that was never a factor in any 
ammunition contracts that were discussed?
    Mr. Medina. I can say categorically that that is not a 
factor at all.
    Mr. DeSantis. How many individuals under the DHS umbrella 
are required to do periodic firearms training? Do we know? I 
know TSA agents are not necessarily armed. Do you have a number 
on that?
    Mr. Medina. Our number for those that are armed and are 
required to qualify is around 70,000 or so.
    Mr. DeSantis. So FLETC, that is pretty much all Federal law 
enforcement agencies except the FBI. Is that what it is now?
    Mr. Medina. FLETC has a large multitude of agencies that 
train at FLETC. In addition, they do training for State and 
local agencies, and FLETC consumes quite a bit of ammunition in 
the context of the training that they do at the various 
facilities that they have.
    Mr. DeSantis. So State and local folks who get trained at 
FLETC, they use some of this ammunition too. About how many 
rounds a year does FLETC use? Do you have a ballpark on that?
    Mr. Medina. Yes, I have it right here.
    Mr. DeSantis. It is 17 million. Does that sound about 
right? Okay. Because we were looking, and if you look at the 
number of rounds per DHS employee, I guess we calculated about 
1,290 rounds per DHS employee. But when we looked at the Army 
for fiscal year 2012, if you looked at the amount of rounds per 
U.S. soldier, it was about 347 rounds. Now, we did look at what 
was actually expended and there were 270 rounds used by DHS in 
the line of duty in fiscal year 2012. I don't have the number 
for the Army, but obviously I think we would all admit that 
they probably expended more than 270 rounds in the line of 
duty.
    So I guess a citizen would look at this and say, why do you 
guys need to have three times more rounds per employee than the 
U.S. Army. What would you say?
    Mr. Medina. I can't speak to what the U.S. Army does. But I 
can tell you that with respect to our law enforcement officers, 
they only have that weapon to protect their lives when they are 
out there working in the front lines. They can't call in air 
support, they can't contact a squad to come help them. All they 
have is that weapon, that one weapon that provides them with 
the security to maintain the safety of themselves and the folks 
that they are entrusted to protect. So they have to be 
proficient in the use of that weapon, at a very high level. 
Because they are operating in the United States in a civilian 
law enforcement capacity, which is different from the military 
capacity.
    But again, I can't speak to how the Army trains their folks 
and why they justify the number of rounds that they actually 
consume.
    Mr. DeSantis. The rounds I was talking about for the Army 
was just small arm rounds, but I understand what you are 
saying.
    There are also news reports about, and this was something 
that I got asked by constituents about whether the DHS was 
starting to procure armored vehicles. This was on websites and 
put out. Is there any truth to that? Does DHS have armored 
vehicles? Is there a need for it? Has there been anything from 
the agency that would substantiate those reports?
    Mr. Medina. We have some MRAPs, Mine Resistant Ambush 
vehicles. Not very many. They weren't procured, they were 
provided to us by the Department of Defense. We use them for 
special operations for officer rescue. In fact, one last year 
was extremely, extremely beneficial for us in a situation where 
it protected our officers from gunfire while we were involved 
in an operation. So yes, we do have some. But it is not very 
many. It is less than 30, I believe.
    Mr. DeSantis. My time is expired. Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you. We will now recognize the 
gentleman from Nevada, Mr. Horsford, for five minutes.
    Mr. Horsford. Thank you, Mr. Chairman.
    I would like to focus for a moment about strategic sourcing 
under the Department. As we know, an assortment of agencies 
falls under the Department's umbrella; more than 45 percent of 
all Federal officers with firearm authority are working under 
DHS. The number of officers who are trained and certified in 
the use of firearms, the number is growing. From 2004 to 2008, 
the number of full-time officers in the U.S. Customs and Border 
Protection rose 33 percent. Over the same period, ICE officers 
rose 20 percent and Secret Service rose more than 9 percent.
    Other DHS components with ammunition requirements, 
including the Coast Guard, Federal Air Marshal Service, and 
Federal Protective Service, are also growing. Border Patrol 
agents have more than doubled, from 10,000 agents in 2004 to 
over 21,000 agents in 2012. It would be reasonable to assume 
that as the number of DHS employees using firearms increases 
that the DHS would continue to procure more ammunition. But is 
it true?
    Dr. Nayak, with the surge in DHS employees with firearms 
authority, did DHS spend more money on ammunition or buy more 
rounds from 2010 to 2012?
    Mr. Nayak. I would say under normal circumstances that is 
generally the case. What the determining factors are on the 
amount of ammunition we buy are two things. One, it is the 
level of staffing that we have, our footprint of those that are 
authorized to carry guns. So commensurately with that, as the 
footprint goes up, we are going to buy more rounds, because we 
are going to consume more rounds. But also, the other factor is 
how much training we are doing, how much basic training classes 
are going on. So to the extent that there is a lot of that 
going on, more round will be consumed. To the extent that that 
drops, less round are going to be consumed.
    There was, again, a spike in 2010. That was a high year, 
and that might explain some of the Secretary's comments about 
150 million, where we bought 148 and some change. That was a 
high year. And that was as a result of some issues that we had 
in 2009, where we couldn't get ammo, so we had to make up for 
it in that year. But if you look at 2011 and 2012, they are 
relatively consistent. We do have a reserve that we try to 
maintain to avoid fluctuations that the marketplace sometimes 
presents. It has been pretty steady now. We are pretty steady 
for our number of officers that we have.
    Mr. Horsford. So despite the increase of DHS officers and 
agents, the budget for ammunition procurement declined from 
2010 to 2012? Is that correct?
    Mr. Medina. That is correct. It has actually gone down 
somewhat.
    Mr. Horsford. And rounds purchased by the DHS declined in 
the same period?
    Mr. Medina. That is correct.
    Mr. Horsford. So the DHS' trend of purchasing less 
ammunition for more employees and more firearms training is far 
from a harbinger of government arms buildup?
    Mr. Medina. That is correct.
    Mr. Horsford. Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you.
    We will now recognize the gentleman from Tennessee, Mr. 
Duncan, for five minutes.
    Mr. Duncan. Thank you very much, Mr. Chairman. I had to be 
at another hearing.
    I just wonder, you probably have already covered this, but 
some people feel that because of an excessive amount of 
purchases by Federal agencies that has led to shortages and 
greatly increased prices. I would be interested to know what 
you said about that before I got here. I am sure you covered 
that. Does somebody want to explain that to me?
    Mr. Medina. Sir, I can comment on that. We represent, DHS 
acquisition represents a very small percentage of the 
commercial market. In fact, one of our ammunition suppliers has 
put on their website that DHS does not impact what their 
current production for the commercial market is. And that in 
fact, the greatest issue that is concerning the commercial 
market is the fact that there is a tremendous demand on the 
commercial market. In fact, you can't even get rimfire 
ammunition. It is very hard to get. And we don't use any of 
that.
    So it is just a tremendous demand by the commercial market. 
The DHS requirements for ammunition are a very little impact to 
those suppliers.
    Mr. Duncan. It seems to me that you had purchased a very 
excessive amount, or the Federal Government as a whole has 
purchased a very excessive amount that is not really needed. I 
remember reading a few years ago that the average FBI agent, 
not counting practice, actually fired a bullet, 1.1 bullets in 
their entire career. I mean, most of these Federal agencies 
almost never fire a bullet in an actual gunfight. It seems to 
me that especially in times of tight budgets that this is one 
area that we should be greatly reducing the amount of money 
that is being spent, instead of just letting all these officers 
fire basically for the fun of it.
    Mr. Duncan. Thank you very much.
    Mr. Chaffetz. Would the gentleman yield?
    Mr. Duncan. Yes.
    Mr. Chaffetz. Adding on to what he is saying, if you have, 
my understanding is on hand, on hand, in storage, we have more 
than 3,400 rounds per person in storage. Doesn't that strike 
you, does that strike you as excessive? Does that strike you as 
well, we need that many per person? Every single person that 
carries a gun in Homeland Security has more than 3,400 rounds 
sitting in storage?
    Mr. Medina. What we do is, ammunition is ordered months 
ahead of time. Certain things happen when the ammunition comes 
in. In terms of the ordering process----
    Mr. Chaffetz. I am asking you, what is a reasonable amount 
to have in storage?
    Mr. Medina. We believe that what we have in storage, which 
is anywhere from 18 months to a two-year supply, is reasonable, 
because of market fluctuations we have experienced in the past.
    Mr. Chaffetz. Are you telling me you have to have 3,400 
rounds because it saves money?
    Mr. Medina. It not only so much about saving money, it is 
that we have had issues getting ammunition from the vendors in 
the past. Because they could not pass our lot acceptance tests.
    The other thing that happens is when a contract expires, it 
takes us about a year to get another contract. Matter of fact, 
right now we have one that we have to move quickly on, because 
it takes, and just the contracting process in and of itself, 
going through it doesn't guarantee you that you will have a 
successful offer. We have had to go back to the drawing board 
on 40 calibers more than once, because none of the ammunition 
that was submitted for the test in the solicitation would even 
function in our weapons.
    So you end up in a situation where you have no supplier, 
you have to rely on what you have in your stores to run you 
through that period of time. That is why we believe we need a 
two-year supply, 18-month to two-year supply.
    Mr. Chaffetz. I think that is one of the things that we 
need to go back and look at. We certainly want them to have the 
training that they need. But it does sound excessive to me to 
have hundreds of millions of round sitting in storage. It does 
seem a bit excessive.
    My time is about to expire. I will now recognize the 
gentlewoman from New York, Mrs. Maloney, for five minutes.
    Mrs. Maloney. Thank you, and first, let me thank all the 
witnesses. Is this ammunition American-made?
    Mr. Medina. Yes, it is, madam.
    Mrs. Maloney. It is American-made. How many companies make 
it?
    Mr. Medina. There are generally three manufacturers that 
are capable of supplying us in terms of volume. Right now we 
have contracts, I believe, with two big suppliers.
    Mr. Nayak. Yes, I don't know the number of contractors, but 
we have about 17 that we have identified, yes, U.S. companies.
    Mrs. Maloney. You have 17 U.S. companies, and you have 
contracts with 2 of them. Could you submit to the record, to 
the chairman and ranking member a list of who these companies 
are and what their contracts are for?
    Mr. Medina. Absolutely.
    Mrs. Maloney. And it has been widely reported, and I would 
like unanimous consent to put there newspaper articles in on 
this, in the Democratic memo for today, if I could, in the 
record?
    Mr. Chaffetz. So ordered.
    [The referenced information was not provided.]
    Mrs. Maloney. Thank you. But it has been reported around 
that the Department has accumulated 1.6 billion rounds of 
ammunition. I would like to ask Mr. Nayak, is that true or not 
true?
    Mr. Nayak. We have answered that, and it is not true.
    Mrs. Maloney. It is not true. Okay. So it has decreased to 
what? It was reported in the paper that I am putting in here, 
1.9 billion, it has decreased to what? How much do you have in 
storage now? Like about five months rounds? Two hundred 
million?
    Mr. Nayak. In storage is two years worth of ammunition.
    Mrs. Maloney. Which is?
    Mr. Medina. It is around 220 million .
    Mrs. Maloney. Why does the Department have any inventory at 
all? Can't they just order the ammunition as you need it? Why 
can't you just order it instead of having hundreds of millions 
of ammo sitting around?
    Mr. Medina. I will answer that, Madam. It is because the 
ammunition that we buy, even though it is sort of COTS, 
commercial off the shelf, it is made specifically to our 
contract specifications. Ammunition has to go through, the duty 
ammunition, not training, but the duty ammunition has to go 
through an arduous process that ensures that that ammunition is 
going to be of the highest quality for our folks. They can only 
ship ammo to us from DHS-approved lots. That is why.
    Mrs. Maloney. Now, the ammunition off the shelf, doesn't 
that come from the 17 manufacturers in America?
    Mr. Medina. It does, but they are generally made on 
different production lines. For example, our 40 caliber 
ammunition, which is the big one that I guess most people have 
commented about, it is the 450 million ceiling contract for 
five years, when we place an order against that contract, a 
delivery order, they will make a lot. It takes them several 
months to make a lot, because they have to buy the components 
separately, propellant and things.
    Mrs. Maloney. Could we do a contract that said, hey, we are 
going to order this once we use up the ammunition that we have 
in inventory sitting around? I guess my question is, what would 
happen if the Department simply stopped acquiring ammunition 
and just used up what you have on hand?
    Mr. Medina. We would run out of ammunition.
    Mrs. Maloney. With 246 million rounds, you would run out of 
ammunition?
    Mr. Medina. What would happen, madam, is that if we used up 
what we had in our reserves, and we placed an order at the 
point where we used up what we had in our reserves, it would 
take a another six months, at least six months, for the 
manufacturers to deliver ammo to us. So we would have a period 
of time there where we wouldn't have ammo.
    We have to keep the pipeline of ammunition flowing so that 
our folks don't run out of ammo. That is why we have to, it is 
a constant turnover of ammo. And yes, we do have a reserve to 
make up for any unforeseen circumstances that might happen in 
the marketplace, or quality issues that might come up with a 
vendor, or a contract that might expire and we would have to 
have ammo to ensure that it could get us to the next contract.
    Mrs. Maloney. And according to the Congressional Research 
Services, which reviewed the Department's awards and 
solicitations and information provided to the subcommittee, the 
largest award made last year was for up to 450 million rounds 
of 40 caliber rounds for ICE. Does that mean the Department 
will take immediate delivery of 450 million rounds?
    Mr. Medina. No, madam. That is just a ceiling. It is for 
five years. And it is up to 450. It is not that we are going to 
take delivery of 450 million rounds.
    Mrs. Maloney. What is the minimum amount the Department 
must purchase each year under the contract?
    Mr. Nayak. We can get that information to you. I don't have 
the exact minimum. Usually it is not very high. But we can get 
that.
    Mr. Medina. It is in the neighborhood of 10,000. It is not 
much.
    Mrs. Maloney. And it appears that the Department actually 
used slightly more ammunition than it purchased in both fiscal 
years 2011 and 2012. Is that true? This is from the CRS report.
    Mr. Medina. I will have to get that data for you.
    Mr. Chaffetz. We thank the gentlewoman. We will certainly 
work to get that. It is also a number that I would like to see, 
what the minimums are as well.
    We now recognize the gentleman from North Carolina, Mr. 
Meadows, for five minutes.
    Mr. Meadows. Thank you, Mr. Chairman. And thank you for 
this hearing that obviously is addressing some of the questions 
that we have from back home. I don't know of any other issue 
that I have been called personally on, sent more personal 
emails on, than this particular issue. My colleague, my 
esteemed colleague, the gentleman from South Carolina, brought 
up a very valid point. It is a point of credibility, gentlemen. 
When you have people within your organization saying one thing 
and the truth of the matter is that is not borne out, it 
provides a real lack of credibility in terms of some of the 
things that you have disseminated. We need to rectify that and 
get to the truth here today and thank you for coming to help us 
with that.
    Also, I want to bring out from a law enforcement 
standpoint, I enjoy the support and the counsel of my law 
enforcement groups back home. Regardless of party, they have 
typically done the right thing for the right reason 
consistently. So I look to you gentlemen to do the right thing 
for the right reason.
    With that, I want to go on a little bit further. Mr. Medina 
and Mr. O'Carroll, I would ask you to hopefully illuminate us, 
why is there such a difference in terms of the amount of rounds 
operationally that we need between your two agencies, in terms 
of efficiency? Some thousand rounds per individual difference. 
Is one of you being more efficient or one being more accurate?
    Mr. Medina. I can't speak to what Social Security has.
    Mr. Meadows. They use a lot less, is that correct, Mr. 
O'Carroll?
    Mr. O'Carroll. That is correct, sir.
    Mr. Medina. But I can tell you that the determinant factor 
on number of rounds that are used for operations is going to be 
the number of weapons that each officer is authorized to carry. 
And the number of times that they are going to qualify.
    Mr. Meadows. So let's take aside, why are we storing so 
much that would be non-training ammo we are looking at? Aren't 
those in two different classifications from a procurement 
standpoint?
    Mr. Medina. It comes from the same batch. It is all 
operational ammo, it is all duty ammo that we use for training 
and operations.
    Mr. Meadows. So there is no difference?
    Mr. Medina. They are not distinguishable. We use the same 
contract for both.
    Mr. Meadows. All right, same contract. In terms of 
allocating and the number of resources that you have, obviously 
you go through training ammo at a much faster rate than you 
would operational ammo, I would hope?
    Mr. Medina. It is true, and operational ammo gets cycled 
back into training after a period of time as well.
    Mr. Meadows. So why are your standards different from Mr. 
O'Carroll's?
    Mr. Medina. The only thing I can say is I am not sure what 
they authorize for weapons with their officers, if it is 
different from outs.
    Mr. Meadows. So you use a SIG Sauer, is that correct? Is 
that what I heard earlier?
    Mr. Medina. We use a SIG Sauer, but we also have other 
weapons that they are authorized to have, in addition to their 
SIG Sauer, like a secondary, a backup small type weapon that 
they are authorized. They are also authorized to have a rifle, 
depending on their duty assignment.
    Mr. Meadows. But this s not rifle ammo that we are talking 
about.
    Mr. Medina. It is all of it. It includes rifle.
    Mr. Meadows. Go ahead, Mr. O'Carroll.
    Mr. O'Carroll. Mr. Meadows, in our case, in fact, one, we 
have one issue weapon that we have, we use the same weapon for 
our training, that is our one duty weapon on it. And quite 
frankly, as I explained before, with our amount of 
qualifications that we have with the weapon or the ammunition 
that they carry, I guess we are about 600 rounds per agent a 
year.
    Mr. Meadows. Which is 1,000 less than what you do, Mr. 
Medina?
    Mr. Medina. It isn't necessarily that way. It is just an 
average that you take, if you do the math. But it doesn't work 
out that way. Because we have folks that are assigned to 
specially authorized weapons.
    Mr. Meadows. So you have to have a special kind of math to 
figure this out.
    Mr. Medina. Well, it is, because there are folks who 
consume quite a bit less than that, and there are folks that 
consume quite a bit more than that. It just depends on the 
specific job assignment you are talking about.
    For example, we have special response teams that use quite 
a bit more ammo than, say, an agent who works in an office. So 
they have a different complement of ammunition issued to them.
    Mr. Meadows. I see my time is expiring. If you are going to 
restore credibility, what would you do at this point, Dr. 
Nayak, Mr. Medina, what do you think you need to do to restore 
credibility, where my people back home can start saying that 
they can rely on you to do the right thing for the right reason 
and not give all kinds of rhetoric?
    Mr. Medina. I think one thing I would say is our 
organization is an open window. We have absolutely nothing 
here. We are very proud of what we have done, we think we have 
done a great job. And I welcome the folks to come see our 
facility.
    Mr. Meadows. But they can't come. I am talking about my 
people back in North Carolina. How do we tell them that you are 
doing the right thing for the right reason?
    Mr. Medina. I think it is just a matter of explaining it 
and putting out the information.
    Mr. Meadows. I see my time is expired. I appreciate the 
chair's indulgence. I yield back.
    Mr. Chaffetz. Thank you. We will now recognize the 
gentleman from Georgia, Mr. Collins, for five minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    This has been fascinating and I apologize for coming in 
late. I had business on the Floor that we were dealing with.
    The issue, though, and this comes up, it may have been 
explained a different way earlier, but I want to get back to 
this. Mr. Meadows and I actually border districts. I am 
northeast Georgia, he is the North Carolina side. So we share a 
lot of the same folks, folks that are family and we come in, we 
get a lot of questions. In fact, I even have with me today, 
because this has become such a hot topic, I have my legislative 
correspondent, one who deals with all the questions, and deals 
with all the correspondence, who gets this question every day. 
That question basically will run many different ways. But they 
are having a hard time buying ammo, they are going to stores 
and they can't get it. And then they read through reports, as 
has been talked about here before, that you are buying up all 
this ammo.
    I am just going to ask you point black, for my folks back 
home, if they ask me, I will let you answer it. The issue with 
them buying ammo, would you say it is because of the contracts 
that you have out there right now, that you are intentionally 
buying up all this ammo to keep it out of the shelves?
    Mr. Medina. Sir, it is not. We are not even affecting it 
anywhere near to what the market forces are.
    Mr. Collins. And to go along with that, I had talked to 
ammo manufacturers, and they confirmed that. Then that gets me 
past these questions and gets to the next question. It has been 
sort of asked here. In light of all the questions that you have 
heard today, and a lot of the comparison, especially the 
military, which there has been some comparison here to why fire 
significantly more than active duty. I am a member of the Air 
Force Reserve still. There is such a constant hold, if you 
would, and close check on the amount of rounds fired from our 
military. Even when they have to qualify and even when they 
have to train.
    Can you explain to me, why does there seem to be much more 
need here in these agencies as compared to our military?
    Mr. Medina. I can't explain what the military fires. All I 
know is I have a facility in Fort Benning, Georgia, and I 
actually live in Georgia. We train with the Rangers all the 
time down there in our facility. And they shoot quite a bit 
more rounds than what was mentioned here as what the Army 
shoots.
    But I can tell you that from a Federal law enforcement 
standpoint, it is important for our officers to be trained and 
have confidence in their weapons, all the weapons that they are 
issued. Especially those folks that are in the special response 
teams, that have to engage themselves in high risk operations, 
which we have in ICE, and CBP has them as well. So it just goes 
to the level of proficiency and competence that we want our 
officers to have with their sidearm, which is all they have. 
They don't have everything else and all the resources that the 
military has when they go into a hostile environment.
    Mr. Collins. I think one of the things we are doing here, 
and I think the question has been asked, the simple issue of 
are we being good stewards of American money. One of the 
problems I have right now, and this is probably going to get me 
calls, but that is fine, they will know where my office is. I 
am tired of coming into the Rayburn Office Building and seeing 
SUVs sitting out friend with their engines running and waiting 
on somebody to testify and come back out. That is a waste of 
money.
    When you look at it here, it is the same kind of thing. Do 
we need the two-year supply? Do we need a two-year backup? Is 
there such a problem coming from the manufacturers?
    I noticed a little bit of what you said about quality. If 
there is that kind of a quality problem here, then shouldn't we 
be looking at something else? Why are we having a quality 
issue, that you need two years worth of backup here? That is 
the problem that most don't understand. They don't understand 
why we need those two years. I know you have explained lag 
times and procurement times. But this is the issue, I think, 
from a stewardship standpoint. Do you understand the questions 
and what we are dealing with here today?
    Mr. Medina. Sir, I do. And we have no hard and fast rule on 
a two-year. It is an 18-month to two-year supply. We built up a 
reserve because of the issues that we have had with deliveries 
and quality in the past.
    Now, that is not to say that it might not change in the 
future, depending on what we can establish as a track record of 
reliability from our suppliers. But you have to remember, just 
as recently as 2009, we had issues. So we have had to make 
adjustments to what we store in our reserves because of the 
issues that we had in 2009.
    Now, again, when you see a reserve, that is not wasted. 
That is going to be consumed. So it is not like ammunition is 
going to be thrown away. It is going to be consumed through 
training and operations.
    Mr. Collins. And that has never been denied. I think the 
issue here is what we are looking at, and the question I asked 
earlier. You have a perception issue. And we deal in 
perception. As I have said many times before, perception is 
reality to people. That is what we have to deal with here. 
There is a reality that we are buying these large contracts, I 
can't get my ammo at my local gun store or Walmart, it has to 
be the government taking my ammo. Then we look at it and see 
you have a two-year supply. Why do we need that much?
    It goes back to stewardship. I appreciate the answers that 
you are giving. I think the understanding is, from our 
perspective, it is just a stewardship issue. A bottom line 
stewardship issue.
    Mr. Chairman, I see my time is gone. I yield back.
    Mr. Chaffetz. Thank you. We now recognize the gentleman 
from Arizona, Mr. Gosar, for five minutes.
    Mr. Gosar. Thank you, Mr. Chairman.
    I am grateful for this hearing. And I have heard my 
colleagues ask some very important questions about why the 
Department of Homeland Security needs so much ammunition 
compared to other Federal law enforcement entities, compared to 
the Department of Defense. Further, I am troubled by DHS' lack 
of accountability and sometimes transparency, when it comes to 
answering direct questions about their ammunition procurement.
    But being that so, people are more concerned with what they 
believe to be billions of rounds of ammunition, and because 
some websites and blogs have asserted the ammunition may be 
used to suppress civil unrest, I will take my questions in a 
slightly different question.
    Dr. Nayak, I have quite a few questions here, taking us 
from point A to point B. So if we could be rather quick in our 
answers, I have a long way to go. I have heard references to 
DHS hoarding billions of rounds of ammunition. True or false?
    Mr. Nayak. False. I think Bert and I will probably take 
some of these questions.
    Mr. Gosar. Either one will be fine.
    I know you explained in your testimony why certain people 
may have misunderstood the documents they based on these 
claims. Would you very briefly again explain what an indefinite 
delivery, indefinite quantity IQ contract is?
    Mr. Nayak. I will take that, thank you. Very briefly, it is 
a type of contract where you are buying something, there is a 
minimum order, there is a maximum ceiling. Usually there is a 
number of years, anywhere from one to five, even ten years of 
supply. And you use those when you are not exactly sure how 
much you will need, when you will need it over that period of 
time. That is why you have a minimum and a maximum.
    And why even a maximum, the maximum is so that we can 
leverage the possibility to get a good deal for the taxpayer. 
That is kind of where my world comes into play, that is where 
the term strategic sourcing comes in. We have been able to, 
through our strategic sourcing program, and by leveraging 
volume, get very good deals for the taxpayer when we buy ammo.
    Mr. Gosar. Would you concur, Mr. Medina?
    Mr. Medina. Yes, I would concur.
    Mr. Gosar. I heard the gentleman say before, when we are 
procuring these large inventories, are we also looking at the 
procurement of the necessary backgrounds, like casings and 
gunpowder, to make sure there are ample supplies? We have 
problems here, and I have an ammo builder in Payson, Arizona. 
One of the problems they say they have is it increasingly 
harder to get brass, gunpowder, all the way along the line. It 
seems like if I am reading this right that you as an end 
source, looking at this from that standpoint, would want to 
make sure that there is ample supply of quality brass, quality 
parts.
    Can you tell me what you look at and how you can make sure 
there are more ready supplies along those lines?
    Mr. Medina. I can tell you that we don't get into the 
components because that is really the responsibility of the 
manufacturer.
    Mr. Gosar. Do you restrict any of those? Or do you know any 
agencies that are restricting that access?
    Mr. Medina. No, I do not. Matter of fact, we actually 
recycle our brass. We do GSA auctions for our brass to try to 
save taxpayer money, and actually we are bringing money back in 
through that process.
    Mr. Gosar. I think it is very obvious from other agencies 
that we have really put a restriction in regard to ammo 
production.
    Mr. Medina. Yes. We work really, really well with vendors, 
as I mentioned in my original testimony, with our ISO 2000 
certified lab. We work real close with the vendors, and we 
share a lot of the technology aspects.
    But with respect to the components, we don't. The big 
vendors that we normally deal with generally make their own 
components. That is usually what happens. Other than 
propellant. They actually generally buy propellant. But the 
projectiles and the cartridge casings they generally make them 
themselves.
    Mr. Gosar. It seems to me, as an end user you would be very 
familiar, that there is ample supplies of those. Have you 
addressed any of the aspects behind the scenes of the limits or 
supply negatives that we have seen in the marketplace? It makes 
a lot of difference to people in that business.
    Mr. Medina. Well, there is really not a lot we can do, 
since we are essentially a consumer. We are subject to the same 
market fluctuations.
    Mr. Gosar. I understand where you are going with this, but 
you are not reading what I am asking you. In order to be an end 
product user, you have to make sure there are ample supplies of 
the supplies to build your end product. So you want to make 
sure the policies are in place not to restrict brass, not to 
restrict gunpowder.
    How are we looking at that in that aspect to make sure 
there are ample supplies so that you get your product?
    Mr. Medina. Those kinds of policy decisions are outside my 
lane.
    Mr. Gosar. I would suspect that we would start looking at 
that as part of our line of inquiry. There is a restriction in 
those aspects and it definitely affected you as the end user 
and does the economics of producing all the way across the 
board for everybody.
    Thank you, Mr. Chairman.
    Mr. Chaffetz. I thank the gentleman and now recognize the 
gentleman from Kentucky, Mr. Massie, for five minutes.
    Mr. Massie. Thank you, Mr. Chairman, for this hearing on a 
very important issue. I think this gets to the heart and the 
purpose and the mission of the Oversight Committee. When a 
department or an agency can't or doesn't give a straight answer 
to the press or the American public and the American public 
becomes frustrated, it is the mission of this committee to get 
the answers, and know in unambiguous terms, they deserve to 
know specifically how this ammo is being procured and in what 
quantities.
    I have been here for an hour and 40 minutes and listened to 
a lot of testimony. But I still can't get my head around the 
numbers. Walk me through this. If we need 60 rounds per agent 
per quarter to qualify that is 240 rounds per agent per year to 
qualify on their firearms. Why do they need over 1,000 rounds, 
knowing that they rarely discharge their weapon in the line of 
duty?
    Mr. Medina. I will speak from the standpoint of DHS. I 
won't say all of DHS, because there are different aspects of 
DHS.
    Mr. Massie. If it is brief, that will be good.
    Mr. Medina. It will be brief. It is a function of the 
weapons that they have. In our agencies, we have not just the 
qualification with multiple weapons, and it is two attempts to 
qualify plus practice. So for example, in ICE, it is 50 rounds, 
not 60, but they get two attempts to qualify with each weapon. 
They might have as many as three. If you are in special 
operations, you might have more weapons.
    They also get, they have to do what we call advanced 
firearms training exercises quarterly that expends ammunition. 
It is much more than just 50 rounds, 60 rounds. It is quite a 
big number around the training.
    Mr. Massie. Thank you very much. It was stated before that 
hollow points are generally used for practice. It was stated 
that they are safer because they don't over-penetrate. While 
that is true, the real reason to use hollow points is they are 
more lethal than the other rounds. I would want law officers in 
the line of duty to have the most lethal round they can have. 
Hollow points are designed to expand as they enter the body, 
causing maximum damage by tearing apart tissue and organs and 
transferring all of the energy of the bullet to the target.
    Can you tell me in very certain terms that hollow points 
are actually cheaper than full metal jacket or just lead 
bullets to use for practice?
    Mr. Medina. I can tell you from our standpoint, and we are 
always looking for a better price on everything. At the rate 
that we buy hollow points, we are buying them very cheap. It is 
essentially the duty ammo.
    Mr. Massie. But if you were to buy them in the same 
quantity, which would be cheaper, hollow points or just regular 
lead bullets?
    Mr. Medina. Well, we couldn't use regular lead bullets 
because we are shooting semi-automatic pistols. You have issues 
with that.
    Mr. Massie. You'd have to go with a full metal jacket.
    Mr. Medina. Yes. Ideally, you could probably get a cheaper 
price with full metal jacket. But the problem that we have, and 
we are trying to sort this out this year, the problem that we 
have is we don't have any, other than FLETC and just a small 
number of ranges out there, most of our folks have to train at 
ranges. They bring the ammo to these ranges at police 
departments or whatever. So the last thing we want is for our 
officers to mix duty ammo with training ammo. We don't have the 
ability to control individual rounds.
    Mr. Massie. But if you could, it would be cheaper?
    Mr. Medina. It would be, sir. And one thing we are doing 
this year, we have an initiative that we have working, an 
acquisition issue that is part of the WACC, for what we call 
readily identifiable training ammunition. If we are successful 
with that, it could yield some higher savings.
    Mr. Massie. I realize the Department of Homeland Security 
is a relatively new department. But it is an umbrella 
organization that represents several agencies that have been 
around for a while. So right now, just to put this in 
perspective, I think there are about 250 million rounds 
stockpiled by the Department of Homeland Security. That is 
almost one round per adult in the United States, just to put 
that in perspective. If we look back historically in the 1990s, 
the 1980s, the 1970s at these departments that have come under 
Homeland Security, what would be the equivalent number that was 
stockpiled in those decades?
    Mr. Medina. I can't answer that, sir.
    Mr. Massie. Does anybody have that answer today? 
Historically, are we stockpiling more rounds than we did in the 
1980s or the 1990s?
    Mr. Medina. I can't tell you that, but I would be willing 
to bet, if I were to do a data dig on it, that we are probably 
getting a better deal. Because we are doing more centralized 
acquisition.
    Mr. Massie. Okay, I would like to get that answer in the 
record, if you could, for me.
    Also, my final question, what is being done to ensure that 
this ammo doesn't find its way into the black market or, heaven 
forbid, to drug cartels, as in the recent gun walking scandal? 
If we find a round of ammunition, even at a gun show but 
possibly at the scene of a crime, how can we be sure that it 
didn't fall off the back of the truck at Department of Homeland 
Security?
    Mr. Medina. We have internal controls over the ammunition 
issuance process, where at the field office level, we have what 
we call senior firearms instructors that are responsible and 
accountable for the inventory.
    Mr. Massie. But there are no unique markings on these 
bullets or the casings, so that we know if they get into the 
black market or heaven forbid, go over the border?
    Mr. Medina. The boxes have lot numbers.
    Mr. Massie. Just the boxes? Not the shells themselves?
    Mr. Medina. That is correct. The shells themselves would 
not have that.
    Mr. Massie. If we are looking for accountability and we 
want to avoid any of these instances, wouldn't that be a good 
thing to do?
    Mr. Medina. It would. It certainly would add some cost for 
a manufacturer to add a different type of marking to a 
cartridge.
    Mr. Massie. Even just a head stamp?
    Mr. Medina. Yes. It depends on the cartridge itself. In 
order for them to try to maximize their efficiency, they want 
to try to use as much of the components that are used in the 
commercial process now.
    Mr. Massie. Thank you. My time is expired.
    Mr. Chaffetz. We thank the gentleman. We look forward to 
following up with that.
    We will now recognize the gentleman from Florida, Mr. Mica, 
for five minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    First, if I may, with the subcommittee's indulgence, I want 
to take just a moment of personal privilege. I have two special 
guests with us today from my district, Christina McFarland in 
the back there, and her daughter and son, Connor and Chloe. 
Just raise your hands.
    These are very special people. Her husband and their father 
was killed in Afghanistan. They are visiting us today. We are 
very pleased to welcome you and thank your family for its 
incredible sacrifice. Again, just a moment of personal 
privilege. Thanks so much, Mr. Chairman.
    Mr. Chaffetz. Absolutely.
    Mr. Mica. Now if I may, let me address some questions to 
Mr. Medina. One of the programs actually that is pretty 
prominent in Central Florida is simulation. I had to attend 
several other hearings at the same time. Have they talked about 
simulation and use for fire testing?
    Mr. Medina. We have not discussed it here.
    Mr. Mica. You have not discussed it today. Do you have a 
program in DHS for it?
    Mr. Medina. We actually took this on as a Weapons and 
Ammunition Commodity Council initiative back, I believe, and I 
will have to do the research on it, in 2010, where we have an 
IDIQ contract for simulators. We have the ability for programs 
to buy them.
    So while it doesn't replace all the live fire, and it can 
never, because the technology is not quite there yet, we 
definitely are big proponents of it.
    Mr. Mica. See, I would have to differ with you 
dramatically. The military is saving hundreds of millions of 
dollars, in fact billions of dollars, with simulation. And most 
of our troops, how many of your troops are going into, or your 
personnel are going into combat daily? They are not firing 
those weapons actually in operational situations daily, are 
they?
    Mr. Medina. No, they are not.
    Mr. Mica. No. Most of what you are firing is in training, 
is that correct?
    Mr. Medina. That is correct.
    Mr. Mica. Almost all of it. There is absolutely no reason 
why you should not have an extensive simulation training. The 
ability to train personnel, whether it is military or law 
enforcement, with simulation, not using live fire, is it has 
incredible potential for saving and better training. You can't 
come before the committee and tell me that they don't have 
sophisticated systems or simulation that will equal their 
experience on the range.
    Mr. Medina. Sir, I am a big proponent of that.
    Mr. Mica. Do we have contracts?
    Mr. Medina. We do.
    Mr. Mica. What agencies do?
    Mr. Medina. ICE established a contract, a DHS-wide contract 
back in 2010 for simulators. Now, the actual units are quite 
expensive.
    Mr. Mica. You don't even have to buy them. You can lease 
them. And they can provide the training and the service.
    Mr. Medina. Right. The only issue that they are having, in 
the military, with really expensive types of equipment and 
aircraft, for the simulations, and they get a lot of value for 
their buck out of that, but when it comes to small arms
    Mr. Mica. Oh come on, don't tell me that. Twenty years ago 
I helped the Live Fire Testing program that the military, in 
fact, we started almost all the military's simulation with 
saving money and not firing live ammunition in training. Almost 
every penny of it. I know that for a fact.
    Mr. Medina. Sir, FLETC is currently using simulations for 
some of the basic instruction, just to get a little bit more of 
the basic foundation.
    Mr. Mica. I think you need to get beyond basic. Again, in a 
time in which we have incredible deficits, and I have seen some 
of the money that you are spending, is absolutely outrageous, 
on live fire testing. It can be done with simulation. They have 
the technology to properly train people.
    Your folks aren't in a day to day combat situation like our 
military. So don't sit there and tell me that you cannot use 
this to a greater extent and save taxpayer money.
    Mr. Medina. Sir, I certainly am a big proponent of 
simulation.
    Mr. Mica. But how much money are you spending out of your 
budget for simulation? Can you provide that to the committee?
    Mr. Medina. I can provide that.
    Mr. Mica. I bet it is pennies on the dollar. And actually, 
if you turn that around, you can save probably 85, 90 percent 
of what you are spending on ammunition and live fire training 
by substituting it with simulation.
    Mr. Medina. One of the problems we have with simulation, it 
doesn't replicate the recoil. Since we shoot handguns, unlike 
the military that mostly shoots----
    Mr. Mica. Again, please don't tell me that. We started this 
program and followed this for 20 years. I think you are so far 
behind the times. Again, using the most expensive means of 
training, live ammunition. And you do not have to use that, and 
you can enhance their skills far greater in a whole host of 
experiences that you can't replicate at a range firing that 
weapon. Did you know that?
    Mr. Medina. We do that. We use it for judgment.
    Mr. Mica. I want to see exactly how much you are spending 
for every agency. In fact, Mr. Chairman, I know we are looking 
at other agencies too. I would like to see what they are 
spending as far as simulation versus live fire testing and have 
that made part of the record. Thank you. I yield back.
    Mr. Chaffetz. I thank the gentleman. We now recognize the 
gentleman from Georgia, Mr. Woodall, for five minutes.
    Mr. Woodall. Thank you, Mr. Chairman. I appreciate the 
time.
    Mr. Medina, I will tell you that the Meggitt Training 
Systems Group is located just north of FLETC there in my 
district. We welcome you down any time you are interested in 
pursuing some of their new products. It is really amazing.
    Mr. Medina. Not far from where I am.
    Mr. Woodall. Thinking about contracting, though, that is 
what I had on my mind, consumables, is it typical for all of 
the consumables that we will use across a calendar year to be 
collected in one, two, three year increments in advance? Do we 
stockpile toner cartridges and batteries and other things in 
the same way that we stockpile ammunition?
    Mr. Nayak. I would say stockpile is not the right 
terminology. We put contracts in place that give maximum 
flexibility. If it were ideal, it would be just in time buying. 
So I am not saying that there is an inventory of a variety of 
consumables. But nobody stockpiles, frankly, nobody has space 
to stockpile.
    Mr. Woodall. I guess stockpile does have a connotation to 
it. But as I look at the numbers, it looks like we have about 
an 18-month supply of ammunition on hand at any one time. Is 
that a fair generalization?
    Mr. Nayak. We have mentioned it several times, yes.
    Mr. Woodall. But would that also be true of toner 
cartridges and batteries and other off the shelf items that we 
might procure?
    Mr. Nayak. The answer is no. You are not going to get a 
huge inventory of many items. There will be some inventory in 
certain places.
    Mr. Woodall. So take me through again the unique nature of 
coming from the deep south, where I do, we won't use the word 
stockpile either. But when there is a good sale at the sporting 
goods store, we will go down and buy enough round to get us 
through the next hunting season. What is the challenge that you 
all face in your procurement of ammunition that is different 
than your procurement of the rest of your consumables?
    Mr. Nayak. Okay. I think Mr. Medina has covered that a 
couple of times in sort of why we buy and have the 18-month 
supply. I put the contracts in place that make sure we get a 
good deal when we buy. But what Mr. Medina could answer----
    Mr. Woodall. That is actually why I wanted to talk about it 
with you from a procurement perspective. But you are in this 
business, right?
    Mr. Nayak. Yes.
    Mr. Woodall. It may be that I, as someone who has to go out 
and prosecute the mission each day, I may have a different set 
of priorities than folks who are in the professional 
procurement business. I may think that it takes two and a half 
years to get something done, you may tell me I can run down to 
Walmart and get it done myself. So I wanted to focus on you as 
a technician.
    Mr. Nayak. So just sharing what we shared earlier, there is 
a time in the procurement process, I didn't create the Federal 
Acquisition Regulation, created in 1984. There are lots of 
rules for a lot of good reasons. So it takes time to buy 
things. That is my world.
    But then in this particular sector, my best understanding, 
Mr. Medina understands this a little bit better than I do, a 
lot better than I do, that community in terms of making 
ammunition, it takes time, and there are a lot of issues in 
terms of the delivery of it. So there is the contracting time 
that it takes and then there is the time it takes to actually 
produce the ammo.
    Mr. Woodall. Is that your experience in procurement? Again, 
these are, so many of these are off the shelf items that 
Walmart procures, that we as individuals procure. Is it your 
experience that things of this commonly-used nature are 
frequently 18-month lead time items?
    Mr. Nayak. Not for toner cartridges and things like that. 
But ammo is different. There is just not a ton of producers of 
ammo in the Country.
    Mr. Woodall. So we buy as much as we can in advance because 
we are concerned as a Nation we won't get as much? Tell me 
about the limited supply. I have to have the same amount every 
year anyway. The producers are producing the same amount every 
year anyway. If there is a limited supply, buying more in 
advance would certainly reduce the supply available to everyone 
else. But I am not sure how it would advantage me as a 
government actor.
    Mr. Nayak. I put the contract in place that gives us the 
ability to buy over time and get a good deal. In terms of when 
to buy and how much to buy, I depend on the law enforcement 
community. I don't know how much ammo they need to do their 
training and operations.
    Mr. Woodall. And you will let a single contract for the 
entire scope of Federal Government? If we need a generic full 
metal jacket 9 millimeter cartridge, you will consolidate all 
of those orders across all agencies and put that out as one?
    Mr. Nayak. Sir, that is an excellent question. That goes to 
the point of strategic sourcing for the government as a whole. 
So for instance, we have, and this has been over a couple, two 
or three administrations, strategic sourcing is something that 
is here to stay, it is getting a good deal for the taxpayer, 
but office supplies, all government agencies use office 
supplies. GSA strategically source some contracts, and we try 
to use those contracts to drive prices down in that area.
    If it were determined, for whatever reason, that there was 
something else that should be strategically sourced, where we 
could leverage the buying power of the entire government, it 
wouldn't be done out of my shop. I might be an executive agent 
for the government or a lead in it. And if we had a need for 
whatever that was, then we would participate in that particular 
government-wide buy.
    Mr. Woodall. Thank you very much. Thank you for your 
patience, Mr. Chairman.
    Mr. Chaffetz. Thank you. The gentleman yields back.
    I now recognize myself for five minutes. Mr. Medina, Dr. 
Nayak, are you aware of any shortages in Homeland Security? Are 
there any shortages of any ammunition in Homeland Security?
    Mr. Medina. No, I am not aware of any.
    Mr. Chaffetz. Is there any situation in any agency that you 
are aware of that does not have the supply that it needs for 
training?
    Mr. Medina. Not that I am aware of.
    Mr. Chaffetz. Is there anybody specifically within Customs 
and Border Patrol that doesn't have ammunition for training?
    Mr. Medina. Not that I am aware of.
    Mr. Chaffetz. So it is your understanding that they should 
have a fully supply to do all of their training requirements?
    Mr. Medina. They surely should.
    Mr. Chaffetz. I would like to ask unanimous consent to 
enter into the record, it is titled Ammunition Shortage for 
Border Patrol, it is from National Border Patrol Council Local 
2554, talking about how they have been given notice that due to 
budget cuts, they will not be issued any ammunition this 
quarter for maintaining. Without objection, so ordered.
    Mr. Chaffetz. Is there anything due to sequestration or 
budgets or anything else that is inhibiting the ability of law 
enforcement to go through its firearms training?
    Mr. Medina. Not as far as I know. My understanding is that 
the current policy that allows for practice ammunition, subject 
to availability of ammunition----
    Mr. Chaffetz. And we said that there is no shortage.
    Mr. Medina. There is no shortage. But if you don't shoot as 
much in practice, then you have more in reserves, which means 
you have less to buy. I think there is an effort to save a 
little money. So there is no question about that.
    Mr. Chaffetz. Let me read the question that I asked, and I 
do appreciate the answer, but I don't understand the answer. I 
want some clarification. I asked how to describe how Homeland 
Security planned to use their ammunition. Under Customs and 
Border Patrol, this is the answer. Approximately 70 percent of 
Customs Border Patrol ammunition is used for quarterly 
qualifications, mandated firearms training and advanced 
firearms training as well as testing and evaluation. I 
understand that. Don't have a problem.
    Twenty percent of Customs and Border Patrol ammunition is 
allocated for maintaining CBP's operational posture. I am still 
not understanding why 20 to 30 percent of the ammunition is for 
operational posturing, and what happens to that ammunition?
    Mr. Medina. Operational posturing means the ammunition that 
you need in order to work your day in, day out.
    Mr. Chaffetz. But once you issue that ammunition, it is not 
as if every agent walks back and their clips are all emptied 
out, their magazine is empty.
    Mr. Medina. Right. But that is just a number that is 
assigned to ammunition.
    Mr. Chaffetz. But you testified earlier when we were asking 
some questions that you don't allow for the mixing and matching 
of training versus operational ammunition.
    Mr. Medina. Well, it is the same kind of ammunition.
    Mr. Chaffetz. No doubt. If you have a Glock, I have a Glock 
23, 40 caliber round. You said you don't mix and match.
    Mr. Medina. We do, it is the same ammo. If I issue you six 
magazines, a complement of ammunition for your Glock, and six 
magazines for your M4, and let's say three or four magazines 
for your Model 26 that you carry on your ankle, that is your 
complement of ammo plus some practice ammunition. That is what 
you might get issued.
    Mr. Chaffetz. I still don't understand, if 70 percent is 
for training, I buy that.
    Mr. Medina. Right.
    Mr. Chaffetz. I just don't understand how 30 percent, 
because it says here, the remaining 10 percent is dedicated to 
maintaining ammunition reserves at both the national and local 
level. So if you keep adding 10 percent to the reserves year 
after year after year, you get to the point where you have an 
awful lot of ammunition in reserve.
    Mr. Medina. There is a limitation to what we can keep in 
reserves. Obviously, certainly that is a function of space. 
Most of this stuff is in field offices that don't have the 
space. There is a limit, no question about it.
    Mr. Chaffetz. I still don't understand what the operational 
ammunition, what happens to it. The word is that it is being 
taken to the black market, it is just being shot in the field, 
shooting who knows what, they are taking it home for their own 
personal use. And it is not as if we are missing 20 or 30 
rounds here. We are talking on an annualized basis about tens 
of millions of rounds, just within Customs and Border Patrol. 
And then I go down to the border and the guys say, we get zero 
ammunition for training. They hand us a bag, literally a baggie 
right now with 60 bullets in it so they can do their quarterly 
qualify.
    Mr. Medina. Ammunition that is issued for operational 
purposes, and that is the complement of ammo you get for your 
magazines and the weapons that you have, is then at some later 
point in time brought to the range and expended in training. 
That is what happens to it.
    Mr. Chaffetz. I think the way we track this, the way we 
classify this, seems so different. What I appreciate from the 
Social Security Administration, again, I am patting them on the 
back, they can break it down per agent, per round. With all due 
respect, they got their act together. What I don't understand 
is, they are using 600 rounds per agent per year, you are using 
almost 1,000 round or more per agent per year.
    I don't understand the differences. I recognize that 
somebody may be carrying three weapons, they may be carrying 
one weapon. But when you average it out and you look at the 
totality of it, it really doesn't make sense.
    My time is expired. I now recognize the gentleman from 
Ohio, Chairman Jim Jordan.
    Mr. Jordan. Mr. Medina, your title says Assistant Director, 
National Firearms and Tactical Training Unit, U.S. Immigration 
and Customs Enforcement, U.S. Department of Homeland Security. 
I have read your background and glanced at your background, you 
have extensive service, and we appreciate that, in training and 
law enforcement.
    Mr. Nayak mentioned earlier the way this works is, you tell 
him what you need. You are the professional, you tell him what 
is required for the safety and the well-being and the training 
of the law enforcement people that you oversee. Is that how it 
works? You give him a recommendation then you guys consult and 
he makes the order?
    Mr. Medina. Through the Weapons and Ammunition Commodity 
Council, what we do is we collect the requirements from the 
various components for their needs. This is when we are going 
to establish a contract. Now, in many cases we will have 
records of what we did.
    Mr. Jordan. In simple terms, Mr. Nayak, you have listened 
to what these guys say, you trust these guys, they are the 
professionals, they give you the numbers. And by and large, you 
are going to take their numbers. You said this earlier, that 
Mr. Medina is more of an expert in this area than you are, 
correct?
    Mr. Nayak. Yes.
    Mr. Jordan. So these are the professionals, these are the 
guys who have the background, this is what we need to keep our 
guys safe. So in 2012, our understanding is you ordered 103 
million rounds, is that correct, fiscal year 2012?
    Mr. Nayak. I think it is a little bit more than 100 
million.
    Mr. Jordan. Okay. What did you order this year?
    Mr. Nayak. I think so far it is 41 million rounds.
    Mr. Jordan. And you plan on ordering how much more the rest 
of the year, or you are going to stop there? What are you going 
to do?
    Mr. Nayak. We are getting out of my lane.
    Mr. Medina. We are ordering more.
    Mr. Jordan. Okay. But it will probably be the same, but 
based on what you think is in the best interest?
    Mr. Medina. It should be pretty close to what we expended 
last year.
    Mr. Jordan. Okay. Here is what I am getting at. Today there 
is a story, it is a headline on the Drudge website. I think it 
is a Washington Times story. It says, Sequestration, Tight 
Budgets means Department of Homeland Security is Going to Buy 
Less Ammunition. So again, I guess what I am asking is, is this 
going to in any way jeopardize the safety of, picking up where 
Chairman Chaffetz was, you say this may result in less 
training, shoot less rounds, which means they don't use up as 
many rounds, and you won't have to buy as much in the future. 
Is that going to in any way jeopardize the safety of the good 
men and women who serve our Country in uniform?
    Mr. Medina. We are not going to do anything that is going 
to jeopardize the safety of the good men and women that serve 
this Country. We are looking at trying to be as efficient as 
possible.
    Mr. Jordan. This gets back to where I was an hour and a 
half or two hours ago, the credibility of the Department of 
Homeland Security. Mr. Medina, Mr. Nayak, are you aware of when 
the sequestration law was enacted and became part of the law? 
Do you know when that was signed into law? Mr. Medina, do you 
know?
    Mr. Medina. I believe it was 1 March, is that correct?
    Mr. Jordan. That is when it took effect. When did it become 
law? Mr. Nayak, do you know?
    Mr. Nayak. Not the exact date. But I will tell you that we 
were planning for sequestration in advance and frankly, we know 
that budgets are tight. We respect it.
    Mr. Jordan. Do you think the Director of Homeland Security 
knew? Do you think Secretary Napolitano knew? Do you think she 
knew? August 2nd, 2011, so 20 months ago. To now say that, oh, 
you know what, the guys who wear the uniform and law 
enforcement people across this Country aren't going to get as 
much training hours because oh, and blame it on sequester, and 
the timing of this news story to happen the day you are coming 
to testify about a concern many Americans have that you have 
too much ammunition, doesn't make a whole lot of sense.
    Again, it goes to this credibility concern that Mr. Gowdy 
and I have been talking about this morning, where you have 
2,228 illegal detainees released, blame it on sequester, 8 of 
them were level 1 felons, blame it on sequester, oh by the way, 
Mr. Chaffetz is having a hearing today on the ammunition 
concerns that many citizens across this Country have about DHS, 
so we are going to buy less ammunition and blame it on 
sequester.
    The American taxpayers understand you had 20 months to get 
ready for it. Again, it goes right to the credibility of 
Secretary Napolitano and this agency.
    So when did you, Dr. Nayak, start planning for 
sequestration? Did you start on August 3rd, 2011? Or did you 
start on March 2nd, 2013? You said you adequately planned for 
it. That is a long time in there. Seems to me a professional, I 
guess I look at it this way. A lot of families, a lot of small 
business owners don't have 20 months to get ready for some 
difficulty that may impact their family, their business. But 
professionals running Federal agencies had 20 months to get 
ready and the day of the hearing, we get a headline that says, 
oh, sequester means we are going to buy less ammunition, 
potentially jeopardizing the safety of the people who work in 
our respective agencies? When did you start, Dr. Nayak?
    Mr. Nayak. First of all, thank you for your passionate 
inquiry. I would tell you that I grew upon in a small family 
business, so I complete understand budgets. And I can only 
speak to my lane within Homeland Security, and I guess I can 
speak for my boss, the Under Secretary for Management. But even 
before sequestration, we can kind of read the tea leaves. If 
things are tight in general, we are all taxpayers as well, and 
so we were looking at our budget for things that we could do to 
plan for not just sequester, but just overall good management.
    Because we did that before sequester, when sequester came 
in our particular lane, we were in pretty good shape.
    Mr. Jordan. Did you guys give bonuses to the folks who work 
in your lane, to use your term, your metaphor? Did you give 
bonuses to people in 2011?
    Mr. Nayak. I am sure there were some minimal bonuses.
    Mr. Jordan. Did you give bonuses to your folks in 2012?
    Mr. Nayak. I can't speak to that.
    Mr. Jordan. Did you have travel to conferences in 2011?
    Mr. Nayak. We have tightened down on everything, including 
travel and conferences.
    Mr. Jordan. But you did it? What about 2012? Did you 
continue to have folks go to conferences and travel in 2012?
    Mr. Nayak. Very minimal, if anything.
    Mr. Jordan. Again, Mr. Chairman, I appreciate this hearing. 
But the credibility of Secretary Napolitano and how she runs 
this agency is, I think, in serious question. I yield back.
    Mr. Chaffetz. Thank you. Does any other member have 
additional questions? We also have a second panel.
    The gentleman is recognized, Mr. Bentivolio is recognized.
    Mr. Bentivolio. Thank you very much, Mr. Chairman.
    Some really quick questions, and short answers would be 
sufficient. We talked to you, following up on the last 
conversation, last questioning, we talked about practice ammo, 
qualification ammo, operational ammo for an officer. Do you 
have an SRT, or a special response team in Social Security?
    Mr. O'Carroll. We don't.
    Mr. Bentivolio. Mr. Medina, you do, don't you?
    Mr. Medina. Yes, we do.
    Mr. Bentivolio. Quite a few of them.
    Mr. Medina. Yes.
    Mr. Bentivolio. During training, training is pretty 
intense?
    Mr. Medina. It sure is.
    Mr. Bentivolio. Not unusual to fire maybe 500 rounds of 
ammunition or something along those lines?
    Mr. Medina. It is not.
    Mr. Bentivolio. Not unusual at all is it?
    Mr. Medina. No, it is not.
    Mr. Bentivolio. Do you teach combat pistol techniques?
    Mr. Medina. We sure do.
    Mr. Bentivolio. Not unusual to fire 90 rounds, 200 rounds 
in the course of fire for training?
    Mr. Medina. No.
    Mr. Bentivolio. How often do you do that? Four times a 
year, once a year?
    Mr. Medina. SRTs train monthly. And sometimes twice a 
month.
    Mr. Bentivolio. So twice a month an officer could fire 500 
rounds each training exercise?
    Mr. Medina. They are not always live fire.
    Mr. Bentivolio. Sim rounds, correct?
    Mr. Medina. Sometimes it is sim rounds, and sometimes it 
is, they are just actually doing CPB work. So no firing is 
involved.
    Mr. Bentivolio. So how often actually fire, putting rounds 
down?
    Mr. Medina. They have to shoot a minimum quarterly with all 
their SRT issued weapons. But in some cases they may shoot 
monthly.
    Mr. Bentivolio. And they will do practice as well, won't 
they? Not unusual to find a dedicated officer out there doing 
it almost once a week?
    Mr. Medina. That is correct.
    Mr. Bentivolio. I understand. Now I am starting to get a 
handle on where all this ammunition is. But my other question 
revolves around some of the line items. I am still going 
through it and still trying to wrap my head around it. But I am 
going to get to the point. I am going to ask you some very 
pointed questions, answer yes or no.
    I have a lot of people calling me up and saying that there 
is all these conspiracies and so forth and so on, you have 
probably heard it, doomsday events, civil unrest, you are 
preparing for that. Do you have any operational plans in the 
event there is civil unrest that you are going to arrest 
innocent civilians and put them in FEMA camps? Do you have any 
plans like that?
    Mr. Medina. No plans.
    Mr. Bentivolio. The answer is clear, you have no plans 
whatsoever.
    Mr. Medina. None.
    Mr. Bentivolio. Great. How about anything else like that?
    Mr. Medina. No plans at all.
    Mr. Bentivolio. Do you follow rules of engagement?
    Mr. Medina. We have use of force law that we follow, it is 
Supreme Court decisions and yes, we do.
    Mr. Bentivolio. Very highly trained officer. So your job 
mainly is to protect, not for any conspiracy to overthrow the 
people of this Country?
    Mr. Medina. That is correct.
    Mr. Bentivolio. Thank you very much. I yield back.
    Mr. Chaffetz. Thank you. We recognize the gentleman from 
Georgia, Mr. Woodall.
    Mr. Woodall. Thank you, Mr. Chairman. I will be brief. This 
committee is holding a separate committee on health care 
transparency upstairs, very complicated issue, no one knows how 
much a heart bypass surgery costs or all the inputs that go 
into it. In this age of information exchange, folks want more 
information than they wanted five years ago or ten years ago. 
Understanding that five years ago or ten years ago it might 
have been sufficient to talk about training purposes and 
operational purposes and categorize things in that way, would 
you anticipate, any of you, seeing some of the terminology 
change and having some of these reports made in different ways? 
My colleague Mr. Bentivolio made a very pointed display there 
that I hope puts lots of people's minds at ease.
    But why do we need to go down that road to begin with? If 
what we are doing is shooting 1,000 round apiece in training, 
let's say we shoot 1,000 rounds apiece in training. If what we 
are doing is taking our operational complement of ammunition 
and recycling it into training, let's say we are recycling it 
into training instead of expending it operationally. Again, a 
lot of folks get worked up about a lot of different things. The 
better course of action would be to prevent folks from getting 
worked up to begin with. Do you anticipate any change in the 
reporting standards that your agencies use? I will start with 
you, Mr. O'Carroll.
    Mr. O'Carroll. I am glad you brought this up, Mr. Woodall. 
One of the things we have been talking about is communication 
and basically getting the information out there to the public, 
to the members of Congress, to your constituents. One of the 
things we are finding that works very well and might be why I 
am here today was that when this hit the press, we went out 
immediately and we added up all the ammunition that we bought, 
all the ammunition that we fired, and we put it on our website. 
We put it out there with explanations for it. We found that by 
getting in front of the problem, and getting the information 
out, so when any of your constituents called, we said, go to 
our website, there is a complete explanation to it.
    I have to say, they have used that a number of times in the 
Council of IGs as the way to use social media to get in front 
of a problem. Hopefully that is an answer to your thing of 
trying to get into the 21st century with our explanation out 
there and telling the public, as opposed to having to have a 
hearing to draw this information out.
    Mr. Woodall. My mother sends me emails daily, Mr. Medina, 
about all the bad things she reads on the internet. I have yet 
to find one that is true, but it still takes up a lot of her 
time and energy to be worried about those things. Any plans at 
DHS?
    Mr. Medina. Yes. We are working real closely with our 
Office of Public Affairs to head off any kind of issues that we 
might see that give an incorrect perception of the ammunition 
used or any of things that we do with respect to our duties.
    Mr. Woodall. Have we seen the kind of linkable public 
disclosure that Mr. O'Carroll describes at DHS?
    Mr. Medina. I think we have had some responses, but I am 
not so sure that we have done anything like that on a website.
    Mr. Woodall. Do you think that would be worth the public 
relations folks' time?
    Mr. Medina. Sure.
    Mr. Woodall. Thank you.
    Dr. Nayak, I know it is not in your lane, but we care about 
how the people's money gets spent on the procurement side. Do 
you see more disclosure today? Do you see more disclosure 
coming tomorrow than what we have seen in years past?
    Mr. Nayak. Sir, from my world, we use the DHS internet. I 
have a strategic plan for procurement, the nine procurement 
offices, 1,422 people spending $13 billion. It is on the 
internet for every taxpayer to see. We have an annual progress 
report against that. It is out on the internet for every 
taxpayer to see. Nobody likes to have it come to a hearing, but 
I am happy to be here to answer the questions, happy to work 
with GAO. We will, at our level, provide all the information. 
As my colleague Mr. Medina said, we will defer to our Office of 
Public Affairs to use all the various techniques to get the 
word out.
    Mr. Woodall. I hope it validates your team, that their work 
does not go unnoticed, since it was there that folks originally 
looked to to get down this road we are today. Thank you for the 
work that you do. Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you. I am also on the receiving end of 
your mother's emails. I tell her how much we appreciate those 
and her hourly input to the public process. Thank you.
    [Laughter.]
    Mr. Chaffetz. We will now recognize the gentleman from 
Massachusetts, the ranking member, Mr. Tierney.
    Mr. Tierney. Thank you. As I said at the beginning of my 
opening remarks, I hate to think that this committee's agenda 
and schedule is going to be set by what hysteria shows up on 
the internet from time to time. I commend you, Mr. O'Carroll, 
for having the foresight to anticipate conspiracy theories and 
to get your stuff out there quickly enough that you might be 
one step ahead. Dr. Nayak and Mr. Medina, now that you are 
going to be apparently in a position to have to try to do that 
as well, good luck with that. I think they are probably not 
going to slow down, the conspiracy theories will think of 
another avenue to go on on that.
    The only other comment I have to make generally on that is 
that the sequester situation is nothing short of legislative 
malpractice, and it was committed by Congress. It wasn't 
committed by the people who are sitting at the table in front 
of us as witnesses or their agencies and departments. It was 
just an absolute failure on the part of Congress to be willing 
to step up and set priorities and determine where cuts were 
going to be made, or to make them in a balanced and reasonable 
way in conjunction with closing loopholes and revenues and 
other things of that nature.
    To think that all of you should have thought way back in 
August of 2011 when there was a bill passed that said that 
sequester may eventually happen if the special committee didn't 
come to a conclusion to anticipate that that would have 
resulted in malpractice and you would actually get 
sequestration would have been some incredible foresight on your 
part. But I commend Dr. Nayak, Mr. Medina and Mr. O'Carroll for 
at least planning that it might happen on that respect. But it 
certainly is the case that no matter what you do in terms of 
that, you are still going to be cutting. You are still going to 
be having less programs and less situations than you had 
before. It is going to be painful.
    But now people that caused it to happen just aren't going 
to own up to it. They are going to think it was some process 
thing and try to convince people they had nothing to do with 
it, when in fact they had everything to do with it. And it is 
the result it is because they can claim on one hand that 
everything the government does is waste, fraud and abuse, being 
apparently unable to show that, they want to make the cuts and 
then claim they had nothing to do with it and then go, oh, my 
God, isn't that terrible, they should have cut waste, fraud and 
abuse instead of what they are doing. Meanwhile, the 
sequestration order very clearly in the statute doesn't allow 
the kind of flexibility that everybody is running around 
claiming exists. It gets right down to the program and activity 
level. And you are stuck with it, with very, very little 
ability to move around on.
    So if we all want to have a truth-telling session here, 
that is where it lays. I know you are doing the best that you 
can, I know that we probably can have some savings and maybe a 
little more transparency and get down that avenue. But I 
certainly regret the fact that it had to come to a full-blown 
hearing. On that basis I think we could have resolved it 
differently.
    Dr. Nayak, you indicated early on that there was a GAO 
report coming out. What is the scope of that report?
    Mr. Nayak. The study is procurement of, it is to review the 
procurement of ammunition at the Department of Homeland 
Security.
    Mr. Tierney. So it will address all the things that were 
discussed here today?
    Mr. Nayak. Yes.
    Mr. Tierney. When is the estimated time of arrival of that 
report?
    Mr. Nayak. The study has begun. Or we have received the 
letter for the study to begin.
    Mr. Tierney. Do you have any idea how long it is going to 
take?
    Mr. Nayak. I don't.
    Mr. Tierney. No general experience with similar reports?
    Mr. Nayak. It depends on the depth and breadth of the 
study. But 30, 60 days.
    Mr. Tierney. Thirty or 60 days, generally?
    Mr. Nayak. It depends.
    Mr. Tierney. How many people, the number of people involved 
in your office in gathering all the documents needed to respond 
to the committee's request for documents?
    Mr. Nayak. It will depend on how far they go down.
    Mr. Tierney. On the committee's request for documents prior 
to the hearing today.
    Mr. Nayak. Oh, for today. I am sorry, the question was?
    Mr. Tierney. The number of people involved in gathering 
that information.
    Mr. Nayak. I would say roughly 20.
    Mr. Tierney. Number of hours? Can you estimate?
    Mr. Nayak. I don't know. A lot of hours, a lot of people. 
All good questions.
    Mr. Tierney. Mr. Medina? How many people involved in 
gathering documents for your hearing today?
    Mr. Medina. I would say going back to the date that we 
received some of the original inquiries to get all this 
information, it was a large number of people. Because a lot of 
the information had to be gathered from field locations. So it 
was hundreds of people, lots of hours and certainly a lot of 
work.
    Mr. Tierney. Mr. O'Carroll?
    Mr. O'Carroll. Well, amongst other things on it is that we 
used this as a learning exercise to make sure that we counted 
every one of our pieces of ammunition that we had out there. So 
we expended a good number of people on checking what we had, 
what we have in current amount. And I have to say we used it as 
a learning experience to figure out better ways to keep track 
of stuff. But we did put a significant number of people in 
that.
    Mr. Tierney. Mr. Medina and Mr. Nayak, will at least that 
time expended be usable with respect to working with the GAO in 
compiling their report?
    Mr. Medina. Yes, it will.
    Mr. Tierney. So at least part of the way done on that work 
and that should be done to expedite that process? Thank you. I 
yield back.
    Mr. Chaffetz. I thank the gentleman.
    I happened to vote against the legislation that created the 
sequestration, as did the member from Massachusetts. It will be 
interesting to have others answer that question.
    We are at the conclusion of this first panel. I want to 
thank each of you gentleman for your expertise, for your 
passion and commitment to the Country. I know that you are here 
and want to make it the very best that you can. As I like to 
say frequently, the United State of America is different from 
the rest of the world. We are open, we are transparent. We talk 
about these things. We have a difficult question, we ask it. We 
have people come and testify and we debate in light of the day. 
That is what the Congress is about, that is what this committee 
is here for. I think this has been very helpful in 
understanding a situation that a lot of people are very 
interested in.
    So I appreciate your expertise, I appreciate your follow-
up. The committee will stand in recess as we set the second 
panel. Thank you.
    [Recess.]
    Mr. Bentivolio. [Presiding.] We welcome our second panel. 
Mr. Jon Adler is the National President, of the National Law 
Enforcement Officers Association.
    Pursuant to committee rules, all witnesses will be sworn in 
before the testify. Please stand up and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth and nothing 
but the truth?
    [Witness responds in the affirmative.]
    Mr. Bentivolio. Let the record reflect that the witness 
answered in the affirmative.
    Thank you. Please be seated.
    In order to allow time for discussion, please limit your 
testimony to five minutes. Your entire written statement will 
be made part of the record.

   STATEMENT OF JON ADLER, NATIONAL PRESIDENT, NATIONAL LAW 
                ENFORCEMENT OFFICERS ASSOCIATION

    Mr. Adler. Thank you, Chairman Chaffetz, Chairman Jordan, 
Ranking Member Tierney and Ranking Member Cartwright, 
distinguished members of the subcommittee, in spirit.
    [Laughter.]
    Mr. Adler. I appear before you today, my name is Jon Adler, 
and in my capacity as the National President for the Federal 
Law Enforcement Officers Association, the largest non-partisan, 
non-profit professional association exclusively representing 
Federal law enforcement officers, 26,000 coming from 65 
different agencies, including the Social Security OIG as well 
as the DHS components.
    Over the last 10 years, we have averaged 58,261 violent 
assaults committed against law enforcement officers. In this 
same time period, we have had 156 on average each year law 
enforcement officers dying in the line of duty, half of which 
from violent encounters with violent and dangerous subjects. In 
addition to that, you are probably aware, and by way of news 
media criticism, our shooting statistics hit ratios aren't as 
high as we would like them to be, and something we definitely 
all want to improve upon. By way of information, from my 
organization's attorneys, for this year, this calendar year, we 
are averaging one shooting incident per week with Federal law 
enforcement officers across the Country.
    What I glean from that is, we need to improve both the 
quality and the frequency of our tactical training. That will 
not get done by dry firing, or dry firing alone.
    By way of my background, not to waste time, but I have been 
in Federal law enforcement 22 years. I am a tactical 
instructor, I taught at FLETC, I am a charter member of the 
International Law Enforcement Educators Training Association. I 
have my masters degree in human resource and law enforcement 
training. Basically a training buff.
    One thing I have learned from my experience, the saying 
holds true, you fight like you train. And you can basically 
substitute the word fight with policing. You police the way you 
train. If you are weak in one, you will inevitably be weak in 
the other.
    Firearms, I listened to all the dialogue. What it comes 
down to, as I am sure both of you are already aware, there are 
two different aspects in the firearms training. We are talking 
about one, the basic marksmanship necessary, the mechanical, 
physical skills, the muscle memory, and two, the judgment. The 
judgment, the ability to identify and assess risk and respond 
to it accordingly. Those two things get addressed in training.
    In terms of ammo consumption, one is very regimented. The 
PQC, pistol qualification course, which does vary, and I have 
learned today that the relevant components do qualify four 
times a year, which is good, may shoot different courses of 
fire. But on average, it is 50, 60 rounds per course of fire. 
What we have heard, and what holds true for the other law 
enforcement agencies that were not addressed today is, each 
time they go to the range, they will shoot an average of two 
courses of fire with the requisite number of rounds for that 
course of fire. Not to mention the ammo that they used, which I 
didn't include in my opening statement or written statement, 
for low-light shooting, tactical shooting, judgmental shooting 
and those types of training, where they will use their what I 
call street carry ammo as well.
    In some instances I did mention in my written statement, it 
didn't really come up during the hearing, but the issue of 
frangible ammo. One gentleman did bring up the point of 
simulation versus live or street carry ammo. I think what he 
omitted, which is very relevant for all law enforcement 
agencies, is the category that falls in the middle, which is 
simunition training, the training we use which you could call, 
in effect, a paint round, where we create scenarios that would 
present use of force situations and we go through wearing 
protective gear and what you might call a fun house, but it is 
anything but fun. And we have role players and we put our law 
enforcement officers in situations where they have to make 
crack decisions to assess different scenarios and respond 
accordingly. That is critical training. And that wasn't 
addressed by the gentleman. But I throw that out there because 
that is a part of the training continuum in firearms.
    So what it comes down to is, they are questioning how much 
ammo is really needed to achieve these objectives and what type 
of ammo. The part about accountability I will leave that to the 
components. But I obviously believe, and as a career or 
experienced instructor, you can't compromise accountability. We 
all know that. We should all embrace it and appreciate it.
    Types of ammo, we were talking about the full metal jacket, 
the jacketed hollow point, and other rounds. I think we have 
covered that enough. Unless the gentlemen have questions on 
that, I will move past that right now.
    In terms of Social Security, one thing I will say to get on 
the record during my time is that Social Security sometimes may 
be overlooked and minimized as simply an IG that investigates 
senior citizen fraud. In fact, the Social Security number in 
the hands of violent drug dealers and other violent criminals 
becomes dangerous contraband, and they do in fact, and I am 
pointing to where the Inspector General was sitting, get 
involved in investigations pursuing very violent criminals. So 
there is an absolute need for them to train as much as they do.
    In terms of DHS, I will just say in closing that I would 
like the opportunity to address two questions that I don't 
think were necessarily addressed. One is the comparison between 
the military, although actually the gentleman, your questioning 
did elicit that. The difference between the requirements for 
our military versus law enforcement and the second comparing 
the DHS cabinet versus the individual law enforcement component 
within the Social Security IG, why there would be differences 
in the number of rounds used in training purposes.
    I thank you for the opportunity to appear before you today. 
I will welcome any questions you may have.
    [Prepared statement of Mr. Adler follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
        Mr. Bentivolio. Thank you, Mr. Adler.
    When you were giving your testimony, it reminds me of 
something Patton once said: more sweat in training, less blood 
on the battlefield. Do you recall that?
    Mr. Adler. Yes, sir.
    Mr. Bentivolio. Do you believe that the Department of 
Homeland Security is procuring more ammunition than it needs? 
Why or why not?
    Mr. Adler. I think it is definitely, listening to the 
testimony, it is a very imperfect system. We have a lot of ammo 
that obviously was prioritized to go overseas to support our 
military troops and our overseas engagement. Understandably, 
myself, and other law enforcement instructors have had 
difficulty procuring ammo in our own individual agency roles. 
This tends to happen and coincide with our military action 
overseas. The companies can only produce so much ammo and that 
is obviously our absolute priority.
    In terms of too much, what is the exact number? The theory 
is that we never want to get caught empty. We can't even come 
close to that. So there has to be a formula where we balance 
the amount we keep in storage and the amount we need for, as 
the phraseology was used, operational purposes. Are they 
storing too much? Well, they are not storing too much if they 
account for it and use it systemically. They would be storing 
too much if in fact they couldn't do those things and they 
couldn't account for it.
    The last thing we want is we don't want the public to 
perceive us as some History Channel law enforcement hoarder 
group. We are not hoarders. We are doers. It is an action verb. 
So certainly, accountability goes a long way toward maintaining 
our credibility.
    Mr. Bentivolio. Are you familiar with the term forecasting 
when it comes to ammunition procurement?
    Mr. Adler. Yes, sir.
    Mr. Bentivolio. Can you tell us step by step, if you could, 
what steps you go through for forecasting future needs of 
ammunition for training as well as operational use and, well, 
we call them battle loads or basic loads of ammunition for 
operations?
    Mr. Adler. Yes, sir. You want to assess your current 
complement of law enforcement officers. You want to assess what 
you are anticipating hiring in terms of new officers coming on. 
And you also want to assess your anticipated attrition. In 
other words, you need to know how many bodies are going to need 
the ammo, as well as the incidents, the types of incidents 
where the ammo may be employed in a field capacity. So you have 
to assess both field carry as well as training needs. In order 
to do that, the starting point is, how many bodies do you have? 
If you don't have bodies, you don't need the bullets. But you 
do have to project and forecast.
    Right now we are facing some economic challenges. So for 
fiscal year 2014, we are probably going to be limited in the 
universe of Federal law enforcement hiring. That would probably 
impact, or that should impact the amount of ammo we purchase.
    Alternatively, we have to also assess what is going on in 
the field, the level of violent crime, the need for 
preparedness, the need to train. What we recently saw in Boston 
the capturing of the second suspect. Who was on scene first and 
who shot first? Federal law enforcement officers. The point 
being that, and what I am getting from my own sources, from our 
attorneys, we are getting more involved in these shooting 
situations.
    So my point being is, in this forecasting, you assess your 
current complement, what you are anticipating your complement 
being by way of attrition and/or hiring as well as the demands 
in the field, how much ammo are we expending in real situations 
out in the field, and what do we anticipate by analyzing the 
crime data made available to us.
    Mr. Bentivolio. Plus training, qualifications, quarterly 
training.
    Mr. Adler. Yes, that is the more scientific part. We know 
exactly what our PQC is. That should be defined on paper. So 
that you can mathematically quantify. The other part is a 
little bit more of a challenge.
    Mr. Bentivolio. Are you anticipating future cuts to the 
budget, where it might jeopardize your ammo procurement?
    Mr. Adler. I think what we are going to feel is maybe not 
the ammo itself but other equipment used in training. You may 
have to go out, you need new ear protection or eye protection, 
you need targets, obviously. You need flashlights when we do 
low-light training. I think everything has to be prioritized. 
Obviously the weapons and the ammunition come first. The 
ancillary equipment could be impacted by the budget cuts, 
absolutely.
    Mr. Bentivolio. Thank you very much. Now I will turn to the 
ranking member.
    Mr. Tierney. Thank you very much.
    Mr. Adler, thank you for coming here today. I hope you 
don't feel by the absence of some of the members that your 
testimony is any less important than others. Our members 
unfortunately have corresponding hearings and other situations 
that conflict. So they are bouncing back and forth on that.
    But your opening statement and your answers to our 
questions will certainly be put on the record and be available 
for every member to take into account. I know the chairman 
joins me in thanking you for being here today and being patient 
enough to wait through the first panel as well.
    I want to thank you also for the information you have given 
us. I think you have done it very concisely and you hit it 
right out of the park and told us what we need to know from 
your perspective on that. So I won't belabor you too much on 
those particulars, because I think you did a great job. But I 
want to just note that the cooperation level between law 
enforcement and the public has been extraordinarily high since 
the Boston Marathon incident, and the mutual respect for law 
enforcement and the public, both ways, has been especially high 
as well. I think that is deserved and people are very, very 
appreciative of the work that is done and the danger that 
officers are put in, and the sacrifice their families make. I 
think the Vice President spoke to that very eloquently 
yesterday, when I had the opportunity to be at Sean Collier's 
service at MIT. The Vice President spoke and talked very 
clearly about what families go through every time a law 
enforcement officer walks out the door. You always pray and 
hope that they are going to come back, but you never know on 
the basis of the weight that has on families as well as the 
officers.
    Sean Collier certainly paid with his life, and Richard 
Donohue, another officer who is still in the hospital, 
hopefully recovering quickly, a testament to the work and the 
risks that officers take. So through you, to the rest of the 
law enforcement community, we want to express our appreciation 
for the work that you do as well as your testimony here today.
    I really don't have any particular questions on your 
testimony, I think you gave us exactly what has to be 
considered as we make our calculations on the equipment. I 
won't go into my comments again on sequestration and the fact 
that when you do have to make adjustments to the equipment that 
you use in training or on the job, we have to be real careful 
that this inability of Congress to make a decision and set our 
priorities, based on some rational basis, instead of having 
these arbitrary and capricious cuts straight across the board, 
don't really adversely impact the safety of our men and women 
that are out there protecting us as well as the public safety.
    Thank you, Mr. Adler, I appreciate it.
    Mr. Adler. Thank you, sir. If I may add, as a New Yorker 
and a career Yankee fan, I have never been so proud as to stand 
in Fenway Park in the field this past Sunday during the law 
enforcement appreciation game and event to pay tribute to Sean 
and all of our heroes, both fallen and still active. It was an 
honor to be there. Thank you for everything you do in the great 
State of Massachusetts as well as Boston and Watertown.
    Mr. Tierney. It may be the end of a good round for me, 
because I know many people commented on the Yankees actually 
having Sweet Caroline sung during the game, which was very 
impressive and meant a lot. It was a very, very emotional time. 
It was good.
    That may be, we may not be able to have a rivalry any more, 
we will just have to get along and play for the sake of 
playing. Thank you.
    Mr. Adler. Thank you, sir.
    Mr. Bentivolio. Mr. Adler, having worked in the past with 
law enforcement, both Federal and State, local level, I 
understand the heart of most of the officers I have worked 
with, that it is always been in the right place, there for the 
right reasons. I want to thank you, sir, for being here today 
and for everything you do in law enforcement. God bless you, 
and God bless all our officers out there, first responders.
    I would like to thank all our witnesses for taking time 
from their busy schedule to appear before us. The committee now 
stands adjourned. Thank you.
    [Whereupon, at 12:55 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
